                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              SELECTED HIGH GROWTH JOB TRAINING
                                              INITIATIVE GRANTS: VALUE NOT DEMONSTRATED




                                                                            Date:    April 29, 2008
                                                                   Report Number: 02-08-204-03-390
Department of Labor                                         APRIL 2008
Office of Inspector General
Office of Audit
                                                            WHAT OIG FOUND
                                                            Our audit of 10 selected HGJTI grants which included

BRIEFLY…                                                    a total of 59 objectives, found that 42 (or 71 percent)
                                                            were met; 10 (or 17 percent) of the objectives were
                                                            not met, and 7 (or 12 percent) of the objectives were
                                                            not clearly defined and we could not determine
Highlights of Report Number: 02-08-204-03-390,              whether they had been met. This was caused by lack
Selected High Growth Job Training Initiative                of ETA oversight and clearly defining grant objectives.
Grants: Value Not Demonstrated, to the Acting               While we recognize that many of these were pilot and
Assistant Secretary for Employment and                      demonstration grants which may not always be
Training, dated April 29, 2008.                             successful, objectives still need to be clearly
                                                            articulated and measurable. Without clear
WHY READ THE REPORT                                         expectations of what a grant is to accomplish and how
                                                            success will be measured, ETA cannot determine
High Growth Job Training Initiative (HGJTI) is a
                                                            whether grant objectives were met and initiatives
Presidential initiative with the goal of preparing
                                                            should be replicated throughout the workforce
workers to take advantage of new and increasing job
                                                            investment system.
opportunities in high growth, high demand, and
economically vital sectors of the American economy.
                                                            We also found that four of nine grants that were
During the period July 1, 2001 through March 31,
                                                            awarded based in part on the grantees’ commitments
2007, the Employment and Training Administration
                                                            to provide additional resources of $42.1 million in the
(ETA) awarded 133 grants totaling $235 million
                                                            form of matching or leveraged funds, could not
(87 percent) through non-competitive procurement
                                                            demonstrate that they provided $20.5 million in
methods. ETA continues to fund HGJTI.
                                                            additional resources. As a result, ETA’s HGJTI did
                                                            not get the benefit of intended resources which in turn
This report completes the second of a two-phase audit
                                                            may have reduced the impact of the initiative. We
effort. Our first audit report, HGJTI: Decisions for Non-
                                                            questioned grant costs of $2,557,887 based on a
Competitive Awards Not Adequately Justified, Report
                                                            proportionate ratio of grantee-provided matching
Number 02-08-201-03-390, was issued November 2,
                                                            funds to Federal funds.
2007.
We reported that ETA could not demonstrate that it
                                                            Finally, we found that ETA did not determine the
followed proper procurement procedures for 90
                                                            usefulness of the grants’ products and activities
percent of sampled non-competitive awards. As a
                                                            before decisions were made to continue or
result, ETA could not demonstrate that it made the
                                                            disseminate them. As a result, ETA disseminated
best decisions in awarding grants to carry out HGJTI.
                                                            unproven strategies. Although ETA contracted for an
                                                            evaluation of HGJTI, the study is designed to look at a
WHY OIG DID THE AUDIT                                       limited number of grantees and will not form an
In response to a request from Senator Tom Harkin,
                                                            adequate basis for determining the effectiveness of
Chairman of the Subcommittee on Labor, Health and
                                                            HGJTI overall.
Human Services, and Education and Related
Agencies, the Office of Inspector General (OIG)
                                                            WHAT OIG RECOMMENDED
conducted an audit of HGJTI grant performance
                                                            We recommend the Acting Assistant Secretary for
results. In this audit, we designed our audit objectives
                                                            Employment and Training take steps to: improve the
to answer the following questions:
                                                            grant writing, solicitation and award process; improve
                                                            grant monitoring and closeout; and enhance the
(1) Did grantees accomplish their grant objectives?
                                                            effectiveness of HGJTI. Further, the Acting Assistant
(2) Were additional matching funds or leveraged
                                                            Secretary should recover questioned costs of
    resources provided by grantees as required?
                                                            $2,557,887.
(3) Did HGJTI grants result in expanded system
    capacity for skills training and competency
                                                            The Acting Assistant Secretary for Employment and
    development?
                                                            Training disagrees with many of the findings and
                                                            believes that its strategic approach to HGJTI was
READ THE FULL REPORT                                        prudent, necessary and successful.
To view the report, including the scope, methodology
and agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2008/02-08-
204-03-390.pdf
                                                                                                 Selected HGJTI Grants:
                                                                                                Value Not Demonstrated


Table of Contents
                                                                                                                      PAGE

Executive Summary ...................................................................................................... 3


Assistant Inspector General’s Report ......................................................................... 7


Chapter One: Findings and Results ......................................................................... 11

   I.       Three Grantees Achieved All Of Their Grant Objectives, While Seven
            Others Partially Met Their Objectives and/or the Objectives Were
            Vague and We Could Not Conclude Whether They Were Met. ..................... 13

  II.       Grantees Did Not Provide $20.5 Million in Required Matching Funds
            and Leveraged Resources ............................................................................... 18

 III.       ETA Did Not Establish That the Grants Were Effective in Expanding
            System Capacity for Skills Training and Competency Development .......... 21


Chapter Two: Summaries of Individual Grants........................................................ 31


Appendices

        A. Background....................................................................................................... 63

        B. Objectives, Scope, Methodology and Criteria................................................ 65

        C. Acronyms and Abbreviations.......................................................................... 69

        D. Agency Response ............................................................................................ 71




U.S. Department of Labor – Office of Inspector General                                                                       1
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-204-03-390
                                                                    Selected HGJTI Grants:
                                                                   Value Not Demonstrated




Executive Summary
In response to a request from Senator Tom Harkin, Chairman of the Subcommittee on
Labor, Health and Human Services, and Education and Related Agencies, the Office of
Inspector General (OIG) conducted an audit of High Growth Job Training Initiative
(HGJTI) grant performance results. This report completes the second audit of a two-
phase audit effort.

HGJTI is a Presidential initiative with the goal of preparing workers to take advantage of
new and increasing job opportunities in high growth, high demand, and economically
vital sectors of the American economy. During the period July 1, 2001 through
March 31, 2007, the Employment and Training Administration (ETA) awarded 157
HGJTI grants totaling $271 million. Of this amount, ETA accepted unsolicited proposals
and awarded 133 grants totaling $235 million (87 percent) through non-competitive
procurement methods. ETA continues to fund this initiative. Grant initiatives were to
provide solutions for current and forecasted workforce shortages, and provide workers
with paths to career enhancing opportunities in high growth, high demand, and
economically vital sectors of the American economy.

The first audit report, HGJTI: Decisions for Non-Competitive Awards Not Adequately
Justified, Report Number 02-08-201-03-390, was issued November 2, 2007. We
reported that ETA could not demonstrate that it followed proper procurement
procedures for 90 percent of sampled non-competitive awards. As a result, ETA could
not demonstrate that it made the best decisions in awarding grants to carry out HGJTI.

In this audit, we designed our audit objectives to answer the following questions:

   1. Did grantees accomplish their grant objectives?

   2. Were additional matching funds or leveraged resources provided by grantees as
      required?

   3. Did HGJTI grants result in expanded system capacity for skills training and
      competency development?

From 39 grants sampled during the first audit, we identified 19 grants that ended on or
before July 31, 2007. Of the 19 grants, we selected 10 grants totaling $15.5 million.
The 10 grants were not statistically representative of HGJTI. Therefore, our results and
conclusions only pertain to the grants audited. Each of the 10 selected grantees agreed
to develop model programs that would help address current and forecasted workforce
shortages in specific high growth industries. Five of the grants contained a training
component.




U.S. Department of Labor – Office of Inspector General                                   3
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated


Audit Results

Our audit of 10 selected HGJTI grants which included a total of 59 objectives, found that
42 (or 71 percent) were met; 10 (or 17 percent) of the objectives were not met, and 7 (or
12 percent) of the objectives were not clearly defined and we could not determine
whether they had been met. This was caused by lack of ETA oversight and clearly
defining grant objectives. While we recognize that many of these were pilot and
demonstration grants which may not always be successful, objectives still need to be
clearly articulated and measurable. Without clear expectations of what a grant is to
accomplish and how success will be measured, ETA cannot determine whether grant
objectives were met and initiatives should be replicated throughout the workforce
investment system.

We also found that four of nine grants that were awarded based in part on the grantees’
commitments to provide additional resources of $42.1 million in the form of matching or
leveraged funds, could not demonstrate that they provided $20.5 million in additional
resources. As a result, ETA’s HGJTI did not get the benefit of intended resources which
in turn may have reduced the impact of the initiative. We questioned grant costs of
$2,557,887 based on a proportionate ratio of grantee-provided matching funds to
Federal funds.

Finally, we found that ETA did not determine the usefulness of the grants’ products and
activities before decisions were made to continue or disseminate them. As a result,
ETA disseminated unproven strategies. Although ETA contracted for an evaluation of
HGJTI, the study is designed to look at a limited number of grantees and will not form
an adequate basis for determining the effectiveness of HGJTI overall.

Recommendations

We recommend the Acting Assistant Secretary for Employment and Training take steps
to: improve the grant writing, solicitation and award process; improve grant monitoring
and closeout; and enhance the effectiveness of HGJTI. Further, the Acting Assistant
Secretary should recover questioned costs of $2,557,887. Refer to pages 26 and 27 for
the 13 detailed recommendations.

Agency Response

In response to our draft report, the Employment and Training Administration generally
disagreed with how we evaluated grant performance. ETA claimed that “OIG’s picture
of grant performance rests on a simple either/or proposition—either the grantee fully
met an objective or failed completely.” ETA strongly disagreed with OIG’s conclusion
that ETA did not provide sufficient oversight of the grants. ETA took exception to the
OIG’s position that it was inappropriate for ETA to share knowledge gained and
products developed without a formal evaluation of the quality of the products. While
ETA disagreed with many of our current findings, it agreed to take corrective action

4                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-08-204-03-390
                                                                     Selected HGJTI Grants:
                                                                    Value Not Demonstrated

related to 5 (recommendations 1a, 1b, 1d, 2b and 2c) of the report’s 13
recommendations. Finally, ETA stated that it continues to disagree with our first audit
and that the strategic approach to HGJTI was prudent, necessary and successful.
These strong objections notwithstanding, the response indicated that “ETA has fully
implemented all new processes to which ETA is committed in the action plan related to
the first part of the audit.”

The Acting Assistant Secretary’s response is included in its entirety as Appendix D.

OIG Conclusion

Our evaluation of grant performance did not rest on a simple either/or proposition. In
fact, we made no conclusion about the performance of 7 out of 59 individual grant
objectives because the grant agreements were not specific enough as to what would
constitute successful performance, rendering us unable to conclude one way or the
other. While ETA disagreed with our conclusion that it did not provide sufficient
oversight of the 10 grants, it provided no evidence to dispute the fact that 6 of the 10
grants in our sample received neither a desk review nor onsite monitoring.

Regarding matching and leveraged funds, if such resources are part of the basis for
awarding any grant, OIG believes ETA must incorporate this requirement into the grant
and hold the grantee accountable for such. It is our position that ETA’s opinion that
partial fulfillment of grant objectives should be considered a success, is too subjective.
Grants should be clear as to what is expected and how success will be determined.

Finally, ETA maintains it was "not necessary or valuable" to formally evaluate all
deliverables. The OIG continues to believe that ETA should not accept unevaluated
deliverables as meeting grant objectives, nor should it disseminate or promote unproven
training or employment strategies or products. It is important to remember, that the
purpose of the quarter billion dollar High Growth Training Initiative is to prepare workers
to take advantage of new and increasing job opportunities in high growth, high demand,
and economically vital sectors of the American economy. Therefore, ETA's position that
all training or employment strategies or products developed under these grants should
be disseminated without first assessing their effectiveness undermines the objectives of
this initiative and appears to be in conflict with the President's mandate that agencies be
"citizen-centered" and "results-oriented."




U.S. Department of Labor – Office of Inspector General                                       5
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




6                                U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-08-204-03-390
                                                                               Selected HGJTI Grants:
                                                                              Value Not Demonstrated

U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




April 29, 2008


                          Assistant Inspector General’s Report




Mr. Brent Orrell
Acting Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In response to a request from Senator Tom Harkin, Chairman of the Subcommittee on
Labor, Health and Human Services, and Education and Related Agencies, the OIG
conducted an audit of HGJTI grant performance results. This report completes the
second audit of a two-phase audit effort.

HGJTI is a Presidential initiative with the goal of preparing workers to take advantage of
new and increasing job opportunities in high growth, high demand, and economically
vital sectors of the American economy. ETA’s Business Relations Group (BRG) served
as the HGJTI office applying extensive effort researching and identifying 13 high growth
initiative areas and documenting the particular industry challenges faced by each
sector. Fields like health care, information technology, and advanced manufacturing
were identified as having jobs and solid career paths left vacant due to a lack of people
qualified to fill them. HGJTI grants were intended to provide national models and
demonstrations in high growth areas. Grant initiatives were to provide solutions for
current and forecasted workforce shortages, and provide workers with paths to career
enhancing opportunities in high growth, high demand, and economically vital sectors of
the American economy. HGJTI targets education and skills development resources
toward helping workers gain skills needed to build successful careers in these and other
growing industries.

Our audit covered the period of July 1, 2001 through March 31, 2007. During this
period, ETA awarded 157 HGJTI grants totaling $271 million. Of this amount, ETA
accepted unsolicited proposals and awarded 133 grants totaling $235 million (87
percent) through non-competitive procurement methods. ETA continues to fund this
initiative.

The first audit report, HGJTI: Decisions for Non-Competitive Awards Not Adequately
Justified, Report Number 02-08-201-03-390, was issued November 2, 2007. We


U.S. Department of Labor – Office of Inspector General                                             7
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

reported that ETA could not demonstrate that it followed proper procurement
procedures for 35 of 39 sampled non-competitive awards (90 percent). These
35 awards totaled $57 million. Specifically, decisions to award non-competitive grants
were not adequately justified, reviews of unsolicited proposals were not consistently
documented, required conflict of interest certifications were not documented, and grant
matching requirements of $34 million were not carried forward in subsequent grant
modifications. As a result, ETA could not demonstrate that it made the best decisions in
awarding grants to carry out HGJTI. Further, since matching requirements had not
been carried forward in some grant modifications, the initiatives and levels of services to
be provided by the grantee may have been significantly reduced from those intended
when the original grants were awarded.

The first audit report contained eight recommendations to improve management
controls over grant awards to ensure: competition is encouraged for grant awards;
award decisions are adequately documented; and matching requirements are carried
forward in grant modifications. As of April 4, 2008, ETA has taken some corrective
actions to improve processes to strengthen management controls for documenting grant
making decisions and conflict of interest certifications; and has provided training to
Administrators on procurement processes and matching requirements.

In this audit, our objectives were designed to answer the following questions:

    1. Did grantees accomplish their grant objectives?

    2. Were additional matching funds or leveraged resources provided by grantees as
       required?

    3. Did HGJTI grants result in expanded system capacity for skills training and
       competency development?

From 39 grants sampled during the first audit, we identified 19 grants that ended on or
before July 31, 2007. Of the 19 grants, we selected 10 grants totaling $15.5 million.
The 10 grants were not statistically representative of HGJTI. Therefore, our results and
conclusions only pertain to the grants audited. Each of the 10 selected grantees agreed
to develop model programs that would help address current and forecasted workforce
shortages in specific high growth industries. Five of the grants contained a training
component. Eight of the grants in our sample were fully or partially funded under
Workforce Investment Act (WIA) Section 171, which authorizes Demonstration, Pilot,
Multiservice, Research, and Multistate Projects. The other two were funded under State
Unemployment Insurance and Employment Service Operations (SUIESO).

The 10 grants included a total of 59 objectives, of which 42 (or 71 percent) were met;
10 (or 17 percent) were not met; and 7 (or 12 percent) were not clearly defined. Seven
of the 10 grantees did not fully meet the grant objectives. Six of the seven grants
whose objectives were not fully met also contained objectives that were so general or
vague that we could not determine whether they had been met, or in one instance the



8                                       U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-08-204-03-390
                                                                   Selected HGJTI Grants:
                                                                  Value Not Demonstrated

grantee was not clear that delivery to ETA was required. We found that four out of nine
grantees could not demonstrate that they provided $20.5 million in additional resources
($11.2 million in matching funds and $9.3 million in leveraged resources). As a result,
ETA’s HGJTI did not get the benefit of intended resources which in turn may have
reduced the impact of the initiative. We questioned grant costs of $2,557,887 based on
a proportionate ratio of grantee-provided matching funds to Federal funds. A summary
of results for the 10 selected grants can be found on the following page.

In addition, ETA did not determine the usefulness of the grants’ products and activities
before decisions were made to continue or disseminate them. As a result, ETA
disseminated unproven strategies, and, in some cases, unsuccessful or
underperforming initiatives were continued and/or may have been replicated elsewhere.
Also, although ETA contracted for an evaluation of HGJTI, the study is designed to look
at a limited number of grantees and will not form an adequate basis for determining the
effectiveness of HGJTI overall.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

Our findings and results are presented in chapter one of this report. Chapter two
contains summaries of each of the 10 grants reviewed.




U.S. Department of Labor – Office of Inspector General                                   9
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                                      High Growth Job Training Initiative
                                                    Summary of Results for Selected Grants

                                             Grantee            All            All        Monitoring           All Additional             Sustained       Grant
                                Award       Additional      Objectives      Objectives    (On-site or Grant     Resources     Questioned      or        Outcomes
        Recipient     State    Amount       Resources     Clearly Defined      Met       Desk Review) Closed     Provided     Grant Costs Replicated    Evaluated

                  1
National Retail        DC     $ 5,065,000   $12,635,780         No             No           None        Yes         No            -           Both         No


Downriver              MI       5,000,000    25,000,000         No             No           Both        Yes         No        $ 2,182,158   Sustained      No


Good Samaritan         SD       1,877,517     1,204,000        Yes             Yes          None        Yes         No           276,729    Sustained      No


Shoreline             WA        1,496,680     1,615,778         No             No           Both        No         Yes            -           Both         No

Maryland Department
                      MD        1,000,000       -               No             No           None        No         N/A            -         Sustained      No
 of Labor

Manufacturing
                       DC         498,520     1,075,000        Yes             Yes          None        Yes        Yes            -           Both         No
 Institute

SEIU                   NY         192,500       176,695         No             No           Desk        Yes        Yes            -           Both        Yes

Hispanic Chamber of
                       DC         136,000       246,000        Yes             No           None        Yes        Yes            -           None         No
 Commerce

Career Firms           DC          99,000       100,000        Yes             Yes          None        Yes         No            99,000      None         No


Brevard                FL          98,560        50,000         No             No           Both        Yes        Yes            -           Both         No


Total                         $15,463,777   $42,103,253                                                                       $2,557,887




1
  National Retail’s additional resources of $12,635,780 consist of $3,327,080 in matching funds and $9,308,700 in leveraged resources. Matching
funds were provided. However, leveraged resources were not supported. (See finding II.B. for additional information.) Costs were not questioned
because leveraged resources were not incorporated into the grant agreement.


10                                                                                                 U.S. Department of Labor – Office of Inspector General
                                                                                                                       Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants:
                                                         Value Not Demonstrated




                Chapter One: Findings and Results




U.S. Department of Labor – Office of Inspector General                       11
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




12                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                                    Selected HGJTI Grants:
                                                                   Value Not Demonstrated

Findings and Results

Objective 1 – Did grantees accomplish their grant objectives?

Three grantees achieved all of their grant objectives, while seven others partially
met their objectives and/or the objectives were vague and we could not conclude
whether they were met.

The objectives in the grants were not always clear and concise. Therefore, it was
necessary for us to review the entire grant document to identify all objectives. We
obtained concurrence from ETA and/or the grantees regarding the objectives we
identified. We assessed whether the grant objectives had been achieved through
discussions with grantee personnel and by reviewing reports, documentation, and
products. While we recognize that many of these were pilot and demonstration grants
which may not always be successful, objectives still need to be clearly articulated and
measurable. Without clear expectations of what a grant is to accomplish and how
success will be measured, ETA cannot determine whether grant objectives were met
and initiatives should be replicated throughout the workforce investment system.

The 10 selected grants included a total of 59 objectives, of which 42 (or 71 percent)
were met; 10 (or 17 percent) were not met; and 7 (or 12 percent) were not clearly
defined. Seven of the 10 grantees did not fully meet the grant objectives. Six of the
seven grants whose objectives were not fully met also contained objectives that were
vague and we could not determine whether they had been met, or in one instance the
grantee was not clear that delivery to ETA was required. The seven grantees that did
not meet all of their objectives gave a variety of reasons, including that products were
developed but not provided to ETA; grantees did not verify subrecipients’ performance;
and students’ qualifications were lower than anticipated. However, contrary to DOL’s
grant administration regulations at 29 CFR 95.51, which require grantees to
“immediately notify DOL of developments that have a significant impact on the award-
supported activities,” the grantees failed to apprise ETA of the problems and delays
they were experiencing.

In those instances where objectives were vague, we do not believe the grants provided
a sufficient basis for ETA to assess whether the grantees had delivered the
performance they were funded to produce. Also, the grantees’ failure to accomplish
their grant objectives, as well as the inability in some cases to identify the objectives
required by the grant, calls into question the sufficiency of the research that went into
the development of the proposals, the rigor of ETA’s analysis when reviewing the
proposals, and the correctness of its decision to award the grants, all of which were
awarded non-competitively.

Six of the 10 grants in our sample did not receive any oversight from ETA, and 3 of
these 6 grants had performance issues. Employment and Training Order No. 1-03,
Improving Administration of Grants within the Employment and Training Administration,
dated April 17, 2003, requires a multi-step approach that included a structured risk

U.S. Department of Labor – Office of Inspector General                                    13
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

assessment of all new grants, quarterly desk reviews of performance, and use of a
standard monitoring guide. Four grants that did receive ETA oversight, had
performance issues that ETA’s oversight failed to disclose. In fact, for five of the eight
grants that had completed ETA’s close-out process and we determined had
performance issues, the ETA Federal Project Officers (FPOs) certified that, to the best
of their knowledge, the grantees’ performance was acceptable. We also noted that,
despite their monitoring responsibilities, the ETA National Office personnel who were
assigned as FPOs did not have access to ETA’s Grants e-Management System
(GEMS), which ETA uses to document monitoring activities.

The grant objectives that we determined were not fully met, fell into the following
categories:

     •   Training and Placement Goals Not Met

     •   Products Not Completed

     •   Completed Products Not Provided to ETA

     •   Required Tracking Not Performed

     •   Objectives Not Clear

     •   Objective Not Beneficial

Training and Placement Goals Not Met

Three grantees did not meet their grants’ stated goals for training and placement.
ETA’s grant to the National Retail Federation Foundation (National Retail) called for the
grantee to place a minimum of 2,500 job seekers. However, National Retail could only
demonstrate that 1,443 job seekers, or 58 percent of its goal, were placed. ETA’s grant
to Shoreline Community College (Shoreline) to adapt the General Service Technician
(GST) curriculum into Adult Basic Education and English as a Second Language
instruction required Shoreline to provide GST training for 100 limited English
proficiency, out-of-school youth, and other interested participants using a new,
innovative model of instruction. While Shoreline claimed it provided training to 142
participants, the documentation it maintained supported just 57 participants.

ETA’s grant to 1199 Service Employees International Union League Grant Corporation,
League Training and Upgrading Fund (SEIU) required it to develop a program to
provide low level healthcare workers with the literacy and academic skills needed to
pass the entrance exam for Licensed Practical Nurse (LPN) training. SEIU conducted
9 pre-LPN classes with a total of 162 students. The grant, as modified, required that 50




14                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                                Selected HGJTI Grants:
                                                                               Value Not Demonstrated

percent 2 of the students pass an entrance exam for an LPN program. Sixteen percent
of the students passed an entrance exam and entered an LPN program. SEIU officials
stated that the 16 percent rate far exceeded their previous experience of 7 percent and
were not aware how the original grant requirement was established. SEIU’s lack of past
demonstrated effectiveness raises questions on the soundness of ETA’s decision to
award the grant in the first place.

Products Not Completed

Two grantees did not provide the non-training objectives required by their grant
agreements. ETA’s grant to the Maryland Department of Labor, Licensing and
Regulation (Maryland) to establish the Maryland Center for Sector-Based Workforce
Development required Maryland to provide six industry-specific “monographs”
identifying workforce issues, challenges, best practices, and suggested solutions. After
each monograph was completed, Maryland was to conduct summits with workforce
professionals, industry leaders, and educators to develop a list of solutions. While
Maryland initiated 10 industry-specific monographs rather than the 6 required by the
grant, it completed only 3 monographs and held 3 summits. Maryland officials stated
that they were delayed in completing the monographs and conducting summits due to
personnel turnover and the time required to identify, recruit, and obtain commitments
from industry leaders.

ETA awarded a grant to the Hispanic Chamber of Commerce, in partnership with BMW
of North America, to promote career opportunities in the automotive industry, targeting
candidates within the Hispanic/Latino communities, and to address the serious shortage
of skilled automotive technicians nationwide. The grant required Hispanic Chamber of
Commerce to develop a bi-lingual career information web portal for BMW automotive
career opportunities; however, a Spanish language website was not developed.
Grantee officials stated that, as Hispanic Chamber of Commerce worked with BMW
during the project, it was clear that individuals looking for project-related information
were English speaking; therefore, a Spanish-specific website was not necessary.

Completed Products Not Provided to ETA

One grantee developed the product specified in the grant, but did not provide it to ETA,
because the grantee did not believe that the objective was ever intended to be made
available for replication and use by other organizations. ETA awarded Downriver
Community Conference (Downriver), in partnership with Auto Alliance International
(Auto Alliance), a $5 million grant to assist in the development and deployment of a
sustainable training process that could be applied to advanced manufacturing systems
in the United States. The grant required Downriver to create a replicable, sustainable
model for large-scale worker skills upgrades in advanced manufacturing systems. At
grant completion, Downriver did not provide this objective to ETA. Downriver officials
stated that the model was created using non-grant funds, prior to grant award, and was

2
 The original grant called for 90 percent of participants to pass an entrance exam and enroll in an LPN
program.

U.S. Department of Labor – Office of Inspector General                                                    15
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

never intended to be made available for replication and use by other organizations.
ETA’s funding of a product that already existed before the grant was awarded calls into
question the credibility of Downriver’s grant proposal, the sufficiency of ETA’s proposal
review process, and the correctness of issuing Downriver the $5 million grant. Further,
required training models and curricula as per Objective 2, Table 2, although developed,
were not delivered to ETA until April 17, 2008, almost 2 years after the grant was
completed and ETA closed the grant certifying that performance was acceptable.

Moreover, all HGJTI grants required that “Grantees agree to give USDOL-ETA all
training models, curricula, technical assistance products, etc. developed with grant
funds. USDOL-ETA has the right to use, reuse, and modify all grant-funded products,
curricula, materials, etc.” Contrary to this grant requirement, Downriver’s grant stated,
“The Department of Labor has our assurances that we will share non-proprietary
curriculum and training programs that are gained from this federal grant program in
order for the agency to replicate effective sustainable training programs to other
American manufacturing facilities.” (Underscoring Added.) Downriver officials stated
that ETA never requested delivery of the above Objectives throughout the grant
process.

ETA conducted onsite monitoring of this grant initiative and had completed the grant
closeout process. Although Downriver had not met an objective required by the grant,
the ETA Federal Project Officer indicated on the Certification for Contractor/Grantee
Performance that, to the best of his/her knowledge, “. . . the performance of the
grantee/contractor [was] acceptable.”

Required Tracking Not Performed

Two of the grants contained a requirement for the grantee to track specified outcomes;
however, the grantees did not track or report information related to the desired
outcomes, as required.

National Retail was required to provide impact data on individuals receiving customer
service certification pertaining to their placement rates, retention rates, advancement,
wages, productivity, and the store's customer satisfaction rating. However, no data on
placement rates, retention rates, advancement, wages, productivity, and customer
satisfaction rating for participants was provided to demonstrate the impact on individuals
receiving customer service certification. ETA’s grant to SEIU required SEIU to improve
the success rate of students in pre-LPN classes that continue on to complete the LPN
program by 50 percent, SEIU stated that it did not track or report this outcome to ETA.

Objectives Not Clear

We found that the objectives in six grant agreements were not always clearly articulated
or measurable, and in some cases were so general or vague that we could not
determine whether they had been met. As a result it was not clear how ETA or the




16                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                     Selected HGJTI Grants:
                                                                    Value Not Demonstrated

grantee would determine that the objective had been met or whether the desired
outcome had been accomplished. For example:

ETA’s grant agreement with Shoreline called for the grantee to adapt the General
Service Technician (GST) curriculum into Adult Basic Education and English-as-a-
Second Language training. One of the grant objectives required Shoreline to “provide
training to incumbent worker population,” but the grant did not specify the number of
workers to be trained or the outcomes expected from the training. e.g., job placement.
Shoreline documented that it provided training to 128 incumbent workers; however, it is
unclear whether that result constituted acceptable performance.

National Retail was required to “promote career opportunities and the value of portable
skills as a means to help employers attract, retain, and advance their workforce.”
National Retail reported that it developed a new “Careers in Retailing” publication and
coordinated “job shadow” days, as well as emphasizing that a retail certification in
customer service could be used in industries other than retail. “Promote career
opportunities and the value of portable skills” is not a measurable result; therefore, we
could not determine if National Retail met this objective.

ETA’s grant agreement with the Maryland Department of Labor to expand “Maryland’s
movement towards a ‘demand driven’ workforce investment system” required
“participation in technical assistance and outreach strategies,” but was unclear as to the
type and quantity required. As a result, we could not determine what level of effort
would be considered successful completion of the objective.

Objective Not Beneficial

We found that one grant’s objective proved to be less beneficial than intended. ETA
awarded a $99,000 grant to the Association of Career Firms North America (Career
Firms) to develop a plan and process to mobilize the private sector outplacement
capacity to address workforce needs in times of emergency when large numbers of
individuals become unemployed. ETA and grantee officials stated that the plan
provided by Career Firms – a “National Emergency Response Reemployment Standby
system” – was not as useful as anticipated, and would have been more useful had it
been individualized to State and local levels. As a result, the plan has not been
sustained or replicated, raising questions regarding ETA’s initial decision to fund the
grant.

Conclusion

Our audit of the 10 grants showed that grantees did not meet significant performance
goals and did not notify ETA that they were experiencing problems in achieving
objectives. While we recognize that many of these were pilot and demonstration grants
which may not always be successful, the objectives still need to be clearly articulated. If
they are not clearly articulated, then ETA cannot determine whether the objectives were
met or the grant initiatives should be replicated. Also, ETA did not provide oversight to

U.S. Department of Labor – Office of Inspector General                                   17
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

identify and address performance problems. As a result, the intended impact of the
grants in addressing workforce shortages may not have been fully realized. Moreover,
the lack of performance in certain grants (e.g., SEIU’s achieving only a 16 percent
instead of the 50 percent pass rate on the LPN entrance exam, and the Hispanic
Chamber of Commerce’s unilateral decision that a Spanish language web site was not
needed), coupled with the findings in the first audit regarding how these grantees and
grants were selected, raises further questions about whether ETA made the best
decisions in awarding grants to carry out HGJTI.

Objective 2 – Were Additional Matching Funds or Leveraged Resources Provided
by Grantees as Required?

Finding 2 – Grantees did not provide $20.5 million in required matching funds and
leveraged resources.

HGJTI and other DOL grant programs use matching funds 3 and leveraged resources 4 to
broaden the impact of a grant initiative and to help ensure the success of the grant by
having the grantee invest its own resources in the project. Nine of the 10 grants in the
sample were awarded based in part on the grantees’ commitments to provide additional
resources of $42.1 million. We found that four grantees could not demonstrate that they
provided $20.5 million in additional resources ($11.2 million in matching funds and $9.3
million in leveraged resources). This was caused in part by ETA officials not ensuring
the amounts reported in Financial Status Reports (FSRs) complied with grant
requirements; allowing other Federal funds to satisfy a portion of the matching
requirement; and not incorporating leverage resources into grant requirements. As a
result, ETA’s HGJTI did not get the benefit of intended resources which in turn could
reduce the impact of the initiative. Since grantees did not demonstrate that required
matching funds were provided, we questioned grant costs of $2,557,887 based on a
proportionate ratio of grantee-provided matching funds to Federal funds.

Matching Problem Identified in First Audit. Our first audit involving these grants
found that ETA had dropped matching requirements in certain grants when a
modification to those grants was issued. Specifically, nine grantees’ matching
requirements of $34 million were not carried forward in grant modifications. Although
ETA claimed this was an administrative oversight, the grantees could have interpreted
this as ETA no longer requiring matching funds. Due to this risk that additional
resources may not have been provided as originally intended, we assessed whether
selected grantees in this audit met their matching funds or leveraged resources
requirement. Specifically, nine grants’ matching requirements of $34 million were not

3
 Matching funds are additional non-Federal resources expended by the grantee to further grant
objectives if required either by statute or within the grant agreement as a condition of funding (29 CFR
95.23, Cost sharing or matching).
4
  Leverage can be federal funds. ETA’s “Core Monitoring Guide – Financial Supplement” defines the
term to mean “all resources used by the grantee to support grant activity and outcomes, whether those
resources meet the standards applied to match or not.”


18                                              U.S. Department of Labor – Office of Inspector General
                                                                    Report Number: 02-06-203-03-390
                                                                                       Selected HGJTI Grants:
                                                                                      Value Not Demonstrated

carried forward in grant modifications. Four of the nine grants were included in the
sample for this audit. For two of the four grants (Manufacturing Institute and Hispanic
Chamber of Commerce), we determined that the required match was met. For the other
two grants (Downriver and National Retail), the grantees claimed the additional
resource requirements were met, although we determined the matching funds and
leveraged resources were not fully supported.

A. Matching Funds

Three grantees did not substantiate that they provided required matching funds of
$11.2 million as detailed in the following table. This was caused by ETA not ensuring
the amounts reported in the grantees’ final FSR complied with grant requirements, and
allowing other Federal funds to satisfy a portion of the matching requirement.

29 CFR 95.23(a), Cost sharing or matching, states:

           All contributions, including cash and third party in-kind, shall be accepted
           as part of the recipient’s cost sharing or matching when such contributions
           meet all of the following criteria: (1) Are verifiable from the recipient’s
           records…. (5) Are not paid by the Federal Government under another
           award, except where authorized by Federal statute to be used for cost
           sharing or matching….

Since grantees did not demonstrate that required matching funds were provided, we
question grant costs of $2,557,887 based on a proportionate ratio of grantee-provided
matching funds to Federal funds.

                                              Matching      Matching                      Share
                                  Grant        Funds         Funds                          Not      Questioned
                                  Costs       Required      Provided     Difference      Provided       Costs
            Recipient              (a)          (b)           (c)         (d)=b-c        (e)=d/b 5    (f)=e x a

    Downriver Community
    Conference                  $5,000,000   $25,000,000   $14,089,211   $10,910,789         44%     $2,182,158

    Evangelical Lutheran Good
    Samaritan Society            1,877,517     1,204,000     1,026,541       177,459         15%        276,729

    Association of Career
    Firms North America            99,000       100,000            0        100,000         100%        99,000

    Total Amount                $6,976,517   $26,304,000   $15,115,752   $11,188,248                 $2,557,887

Downriver was awarded a $5 million grant with the condition that matching funds of
$25 million would be provided. Supporting documents and final FSRs reported
$14 million of matching funds. Not providing the entire $25 million match indicates that
Downriver may not have needed the entire $5 million awarded in Federal financial
resources. Based on a cost sharing ratio, we questioned grant costs of $2,182,158.

5
    Percentages have been rounded for presentation purposes.

U.S. Department of Labor – Office of Inspector General                                                       19
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated


Evangelical Lutheran Good Samaritan (Good Samaritan) was awarded a $1.9
million grant with the condition that matching funds of $1.2 million would be provided.
Good Samaritan provided documentation for the $1.2 million, of which $177,459 was
from other Federal sources. The source of the Federal matching funds was
predominately the United States Department of Agriculture. Good Samaritan requested
and received approval to use other Federal funds from an ETA official. The use of other
Federal funds is contrary to 29 CFR 95.23(a)(5) and ETA did not have the authority to
allow the use of other Federal funds as matching. Based on a cost sharing ratio, we
questioned grant costs of $276,729.

Association of Career Firms North America (Career Firms) was awarded a $99,000
grant with the condition that matching funds of $100,000 be provided. However, Career
Firms did not account for or report any matching funds on its FSR. Career Firms
claimed it provided the match, but was never informed by ETA of the need to track and
report it. Career Firms provided an unsupported list of estimated hours and travel costs
by board members who purportedly worked on the grant objective. Based on a cost
sharing ratio, we questioned the entire grant of $99,000.

B. Leveraged Resources

Leveraged resources are not defined in regulation or related administrative
requirements. However, ETA’s “Core Monitoring Guide – Financial Supplement”
defines the term to mean “all resources used by the grantee to support grant activity
and outcomes, whether those resources meet the standards applied to match or not.”

29 CFR 95.51(a), Monitoring and Reporting Program Performance, states:

        (a) Recipients are responsible for managing and monitoring each project,
        program, subaward, function or activity supported by the award….

National Retail was awarded a $2.8 million grant which was subsequently modified to
$5.1 million. As part of its written justification to the DOL Procurement Review Board 6
to increase funding, ETA noted leveraged resources of $9.3 million were to be provided
by two sub-grantees, Toys “R” Us and Saks. This $9.3 million of leveraged resources
was not incorporated into the grant. 7 In its Final Report on performance, National Retail
reported $19.5 million of leveraged resources in training for Toys “R” Us and Saks
employees. National Retail did not provide support for Saks. The data for Toys “R” Us
was unallowable because it contained activities outside the statement of work and not
relevant to the grant such as Toys “R” Us new employee orientation and courses
6
 An entity of DOL that is independent of ETA and responsible for reviewing certain acquisition activities
and recommending approval or disapproval for funding non-competitive awards.
7
  National Retail’s additional resources of $12,635,780 consisted of $3,327,080 in matching funds and
$9,308,700 in leveraged resources. The matching funds were provided. However, claimed leveraged
resources were not supported. Costs were not questioned because leveraged resources were not
incorporated into the grant agreement.


20                                             U.S. Department of Labor – Office of Inspector General
                                                                   Report Number: 02-06-203-03-390
                                                                    Selected HGJTI Grants:
                                                                   Value Not Demonstrated

provided before and after the grant period. This occurred because National Retail relied
on the information submitted by Toys “R” Us and Saks, and did not verify if the amounts
were accurate. National Retail was responsible for monitoring its subcontractors, but it
did not perform adequate monitoring to determine whether the leveraged resources
were received and used in support of the HGJTI grant program.

Conclusion

Our audit of the 10 grants found that 4 grantees could not demonstrate that they
provided $20.5 million in additional resources ($11.2 million in matching funds and
$9.3 million in leveraged resources). As a result, ETA’s HGJTI did not get the benefit of
intended resources which in turn could reduce the impact of the initiative. Since
grantees did not demonstrate that required matching funds were provided, we
questioned grant costs of $2,557,887 based on a proportionate ratio of grantee-
provided matching funds to Federal funds.


Objective 3 – Did the selected HGJTI grants result in expanded system capacity
for skills training and competency development?

Finding 3 -- ETA did not establish that the grants were effective in expanding
system capacity for skills training and competency development.

HGJTI grant agreements contain a standard provision that, “. . . a key objective of all
grants funded under the initiative is the development of sustainable, replicable skills
training and competency development models that will be widely shared and used to
develop the capacity of workforce, education, industry, and economic development
stakeholders.” All but two of the grantees in our sample provided evidence that
products and activities were replicated by other organizations or sustained by the
grantee after the grants ended. In at least one case, the activities were continued with
other DOL funding. However, ETA had no assurance that the products and activities
that continued after the grants ended were effective, despite the grant provision that
identified capacity development as a key objective of HGJTI grants.

Specifically, ETA did not determine the usefulness of the grants’ products and activities
before decisions were made to continue or disseminate them. This was because, with
one exception, the grants themselves did not require an evaluation to determine if the
grant strategies were successful, and ETA’s policy was to disseminate all grant results
without assessing their effectiveness because ETA does not have expertise in many
areas, such as curriculum development. As a result, ETA disseminated unproven
strategies. Also, although ETA contracted for an evaluation of HGJTI, the study is
designed to look at a limited number of grantees and will not form an adequate basis for
determining the effectiveness of HGJTI overall. Without both grant-specific and
comprehensive evaluations of HGJTI, ETA will be unable to demonstrate the success of
the initiative in increasing the workforce investment system’s capacity through the
development of effective training and competency models.

U.S. Department of Labor – Office of Inspector General                                 21
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

      A. Grant Activities Were Replicated and/or Sustained without a Determination
         that They Were Effective

Eight of the 10 grants in our sample produced results that were replicated and/or
sustained to varying degrees; the results of the remaining 2 grants were neither
replicated nor sustained. We considered initiatives to be replicated if grant-developed
models were implemented in other geographic locations or organizations, and sustained
if the grantee continued them after the grant ended. 8 Although many of the grant-
funded activities we reviewed were replicated by other entities or sustained after the
grants expired, ETA did not have processes in place to adequately evaluate the quality
of products prior to dissemination to the workforce investment system.

Eight of the grants in our sample 9 were fully or partially funded under Workforce
Investment Act (WIA) Section 171, which authorizes Demonstration, Pilot, Multiservice,
Research, and Multistate Projects. While, in each case, the grant cover page contained
a reference to the Workforce Investment Act, the eight grants did not specify that they
were funded under WIA Section 171, nor under which subsection of WIA Section 171
they were funded.

For the eight WIA-funded grants, the distinction as to which subsection of WIA
Section 171 applies is important, because each has a unique purpose.

      •   WIA Section 171(b) provides that Demonstration and Pilot projects are “for the
          purpose of developing and implementing techniques and approaches, and
          demonstrating the effectiveness of specialized methods, in addressing
          employment and training needs.”

      •   WIA Section 171(c)(1) states that Multiservice projects will be carried out to “test
          an array of approaches” and “assist in the development and replication of
          effective service delivery strategies” for the national employment and training
          system.

      •   WIA Section 171(c)(2) authorizes grants and contracts for Research projects.

      •   WIA Section 171(c)(3) provides for Multistate projects to be carried out through
          grants and contracts “designed to obtain information relating to the provision of
          services . . . to provide guidance at the national and State levels about how best
          to administer specific employment and training services.” [Emphasis added
          throughout.]

8
    ETA did not define the terms replicated and sustained within grant documents.
9
  Two of the eight grants that received WIA funds also received other ETA funding: one received H-1B
skill training grant funds (Shoreline), and one received funding from ETA’s State Unemployment
Insurance and Employment Service Operations (SUIESO) account (Downriver). Two grants in our
sample (Good Samaritan and SEIU) received no WIA funds; both were funded out of the SUIESO
account.


22                                               U.S. Department of Labor – Office of Inspector General
                                                                     Report Number: 02-06-203-03-390
                                                                    Selected HGJTI Grants:
                                                                   Value Not Demonstrated

Based on the foregoing, the clear intent of WIA section 171 is to not only fund but also
determine the effectiveness of individual projects so that their results – good or bad –
can be used to enrich the body of knowledge on effective employment and training
strategies.

ETA prepared a Tutorial for Preparing DOL High-Growth Product Descriptions, updated
December 17, 2007, to guide staff who may need to review a grantee product, write a
description, or insert comments, updates, or other information into the grantee product
database. The tutorial requires a superficial review of grant products and states that
ETA’s evaluation process includes review for political sensitivity and grammar, and
requires the flagging of “… products (or parts of products) that appear shoddy,
incomplete, amateurish, or unrelated to the subject area.” Further, ETA stated that
“… strategies are designed to recognize the learning nature of each grant – that is, ETA
has supported a neutral approach to disseminating all results and has not done a review
of quality per se, given that ETA does not have expertise in many areas, such as
curriculum development.”

ETA’s dissemination process involved gathering HGJTI grant objectives and distributing
them to workforce, education, industry and economic development stakeholders at
national conferences, in mass mailings, and on ETA’s Workforce3One website.
Workforce3One provides direct access to HGJTI products, and hosts Webinars,
podcasts, and electronic newsletters. All products contained a disclaimer that the
Department of Labor was not endorsing the product and that it was intended for non-
commercial use only. As a result, products were disseminated without any evaluation of
their usefulness to the workforce investment system.

Three examples of unsuccessful, underperforming, or unproven initiatives whose
activities continued after grants end, two of which used Federal resources, are as
follows:

   •   Brevard was to provide support for operation of launch facilities and conduct six
       sub-orbital launches, at least one at Cape Canaveral Air Force Station, to
       demonstrate to K-12 youth and college students the technologies required for the
       technical workforce of the future. The grant was intended to foster interest in
       academics and expand work in technical fields through motivational exposure to
       real world experiences; however ETA did not develop a methodology on how to
       measure the impact of this program. Brevard obtained support of the U.S. Air
       Force and Space Florida to sustain the initiative, and Space Florida replicated
       the initiative and planned to provide launch demonstrations.

   •   SEIU received a grant to provide a literacy pre-LPN initiative. Although the grant
       contained a performance objective whereby 50 percent of its participants were to
       pass an entrance exam for an LPN program, the grant achieved only a 16
       percent entrance exam pass rate. SEIU was the only grant among the ten we
       reviewed that called for an external evaluation, which found that the outcomes
       fell short of those projected in the original project design because the timeline

U.S. Department of Labor – Office of Inspector General                                     23
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

         was overly ambitious for this population with limited literacy and language skills.
         SEIU continued the initiative locally in New York City and expanded it to its
         Syracuse, New York, location.

     •   Similarly, the Maryland Department of Labor grant did not fully meet its objectives
         to develop six industry-specific monographs and conduct six industry summits.
         Nonetheless, the grantee continues to fund these activities using WIA State set-
         aside monies.

The HGJTI grants were approved without any requirement for either the grantees or
ETA to evaluate the individual grants’ effectiveness; we question whether the intent of
WIA Section 171 to test and demonstrate effective strategies was fulfilled.

     B. ETA Has No Firm Plans to Assess HGJTI’s Overall Effectiveness

WIA Section 172 (a) requires that the Secretary provide for the continuing evaluation of
the programs and activities funded under WIA Title I, specifically including those
programs and activities carried out under section 171. WIA Section 172 (a) further
requires, among other provisions, that such evaluations address the general
effectiveness of such programs and activities in relation to their cost, and the
effectiveness of the structure and mechanisms for delivery of services through such
programs and activities. Eight of the 10 grants in our sample received all or some of
their funding under WIA Section 171.

ETA has not yet conducted an overall evaluation of HGJTI effectiveness to prepare
workers to take advantage of job opportunities in high growth industries. ETA has
contracted for a three-phase evaluation of HGJTI. To date, phase one has been
completed; however, it did not address program effectiveness. Phases two and three
will evaluate the progress and impact of HGJTI training, but are limited to a total of six
grantees. Therefore, it is unlikely that the current evaluation will be able to determine
the overall effectiveness of the initiative. A final component of the current evaluation is
an assessment of the feasibility of further evaluation of impacts, costs and benefits, and
performance and results, along with the presentation of evaluation options to ETA.

Additional information on the three phase evaluation follows:

•    In phase one, the Urban Institute issued a report entitled, Implementation and
     Sustainability: Emerging Lessons from the Early High Growth Job Training Initiative
     (HGJTI) Grants, dated April 2007. Based on discussions with grant administrators,
     the report documented the experiences of grantees on major implementation
     lessons and the extent to which projects continued after the end of the grant. From
     a sample of 20 early grantees, the report concluded that grantees generally
     continued activities, though half continued activities in a modified form than what
     was approved in the original grant.




24                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-203-03-390
                                                                      Selected HGJTI Grants:
                                                                     Value Not Demonstrated

    Phase one included four grants that were selected in our audit: Brevard, Downriver,
    National Retail, and SEIU. There were no significant differences between Urban
    Institute’s results and OIG’s results for Brevard and SEIU. For Downriver, the Urban
    Institute concluded that the initiative terminated at the end of the grant, whereas
    during our audit, grantee officials stated that its partner, Auto Alliance, continues to
    use the training models and curricula obtained from the grant. For National Retail,
    the Urban Institute reported training and placement data that differed from our audit
    results. Urban Institute reported training and placement data that exceeded grant
    requirements.

•   In phase two, the Urban Institute plans to evaluate HGJTI progress. The scope of
    work includes selecting 2 to 3 training grantees from a universe of 32 that have
    achieved a satisfactory level of implementation stability and are implementing job
    training. To evaluate impact, the Urban Institute plans to analyze employment and
    earnings data from grantees and state offices. In the statement of work for phase
    two, the Urban Institute stated, “The resulting analyses will provide early indications
    of the impacts of selected HGJTI training efforts. There are some obvious
    limitations, including that the selected sites will not be representative of all HGJTI
    grantees … and that data available on comparison groups may not be comparable
    across sites or generalizable to other sites.” The final report for phase two is
    scheduled to be issued August 2008.

•   In phase three, the Urban Institute’s plan is to evaluate the impact of training
    provided by an additional three grantee initiatives, as well as an analysis of the
    phase two sites. The Urban Institute plans to conduct site visits, which had not been
    conducted during previous phases, to gather information on initiative
    implementation, resolve data issues, and expedite the transfer of data. Timeframes
    for the phase three evaluation have not been established.

Conclusion

Because the Urban Institute effort will not produce results that are representative of
HGJTI as a whole, and plans for additional evaluations will not be proposed by the
Urban Institute or considered by ETA until the completion of the current evaluation,
there is not currently a plan for conducting an evaluation of the initiative’s general
effectiveness as required by WIA. This, coupled with the lack of a mechanism to
evaluate grant-by-grant performance, impairs ETA’s ability to determine whether HGJTI
grants have been effective in producing effective, sustainable and replicable skills
training, and competency development models to develop the capacity of workforce,
education, industry, and economic development stakeholders.




U.S. Department of Labor – Office of Inspector General                                    25
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

Recommendations

We recommend the Acting Assistant Secretary for Employment and Training take the
following actions:

1. To improve the grant writing, solicitation and award process:

      a.     Develop a consistent process so that grants delineate clear, concise, and
             measurable objectives that can be used to measure the success of grant
             performance.

      b.     Each grant should be specific as to the products to be delivered, its form
             and method of delivery.

      c.     Ensure that all matching and leveraged fund requirements are
             incorporated into grant agreements.

      d.     Identify in each grant the specific source of funds and all special
             requirements associated with the source of funds, including but not limited
             to requirements for demonstration, testing, and evaluation of grant results.

      e.     Ensure grants do not contain language that would exclude products from
             delivery to ETA.

2. To improve grant monitoring and closeout:

      a.     Adhere to ETA policies requiring that each grant be monitored on an
             ongoing basis so that problems are identified and corrective action is
             taken to help grantees achieve or revise their performance objectives.

      b.     Ensure that National Office personnel assigned FPO responsibility have
             access to GEMS.

      c.     Ensure ETA personnel are fully aware of matching and leverage fund
             requirements, including that the use of funds from other Federal sources
             for matching purposes is allowable only if specifically authorized by
             statute.

      d.     Ensure that grantees meet established grant requirements, including
             matching funds and leveraged resources, before the FPO attests during
             closeout to the fact that the performance by the grantee is acceptable.

      e.     Recover questioned grant costs of $2,557,887.




26                                     U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-06-203-03-390
                                                                    Selected HGJTI Grants:
                                                                   Value Not Demonstrated

3. To enhance the effectiveness of HGJTI:

       a.     Ensure that grant products are evaluated prior to dissemination to the
              workforce investment system, and that Federal resources are only used to
              sustain or replicate initiatives that have been proven effective.

       b.     Evaluate the grant products that have already been disseminated on
              Workforce3One and through other media. Unsatisfactory products should
              be removed and retracted, where feasible.

       c.     Implement a process for continuous evaluation of the HGJTI effectiveness
              to improve program management and determine if ETA’s investments are
              well spent.

Agency Response

In response to our draft report, the Employment and Training Administration generally
disagreed with how we evaluated grant performance. ETA claimed that “OIG’s picture
of grant performance rests on a simple either/or proposition—either the grantee fully
met an objective or failed completely.” ETA strongly disagreed with OIG’s conclusion
that ETA did not provide sufficient oversight of the grants. ETA took exception to the
OIG’s position that it was inappropriate for ETA to share knowledge gained and
products developed without a formal evaluation of the quality of the products. While
ETA disagreed with many of our current findings, it agreed to take corrective action
related to 5 (recommendations 1a, 1b, 1d, 2b and 2c) of the report’s 13
recommendations. Finally, ETA stated that it continues to disagree with our first audit
and that the strategic approach to HGJTI was prudent, necessary and successful.
These strong objections notwithstanding, the response indicated that “ETA has fully
implemented all new processes to which ETA is committed in the action plan related to
the first part of the audit.”

Regarding our specific recommendations in the current report to:

Improve grant writing, solicitation and award process. ETA did not agree with our
questioning leveraged resources not provided and explained that, although encouraged,
leveraged resources were not always intended to be a grant requirement. ETA stated
that it believed grants are clear as to whether or not products are required to be
delivered.

Improve grant monitoring and closeout. ETA stated that it believed it is following its
monitoring requirements and noted that not every grantee would receive an onsite visit,
but would receive desk reviews. ETA claimed that it does address failure to meet grant
requirements during monitoring and closeout, and stated that in some instances “ETA
regarded partial fulfillment of objectives as successful….” ETA disagreed with the
majority of questioned costs (related to unmet matching requirements for Downriver)
because it believed “the original proposed matching amount was unrealistic and that

U.S. Department of Labor – Office of Inspector General                                 27
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

ETA should have provided better guidance to the grantee about the reasonableness of
such a large match and adjusted the grant award accordingly.”

Enhance the effectiveness of HGJTI. ETA stated that it does not agree it was
necessary or valuable to evaluate every High Growth deliverable, other than routine
screening, before sharing it with the workforce system and its strategic partners. ETA
also indicated that the current funding source for HGJTI is H-1B fees, which does not
require an evaluative component.

The agency's response is included in its entirety as Appendix D.

OIG Conclusion

Our evaluation of grant performance did not rest on a simple either/or proposition. In
fact, we made no conclusion about the performance of 7 out of 59 individual grant
objectives because the grant agreements were not specific enough as to what would
constitute successful performance, rendering us unable to conclude one way or the
other. While ETA disagreed with our conclusion that it did not provide sufficient
oversight of the 10 grants, it provided no evidence to dispute the fact that 6 of the 10
grants in our sample received neither a desk review nor onsite monitoring.

Regarding matching and leveraged funds, 9 of 10 sampled grants were awarded non-
competitively in part because grantees committed to provide additional resources in the
form of matching funds or leveraged resources. While matching funds were included in
the grant, leveraged resources were not always incorporated into the grant agreement.
If leveraged resources are part of the basis for awarding any grant, OIG believes ETA
must incorporate this requirement into the grant and hold the grantee accountable for
such. Although ETA believed that requirements for product delivery were clear, we
noted one grant (Downriver) that contained contradictory language.

It is our position that ETA’s opinion that partial fulfillment of grant objectives should be
considered a success, is too subjective. Grants should be clear as to what is expected
and how success will be determined. Without such clarity, how will ETA hold a grantee
accountable in instances where it considers partial fulfillment to be unsuccessful? Our
evaluation of questioned costs can only be based on the grant requirements agreed to
by ETA and the grantee when the award was made. The OIG cannot audit against
what ETA wished it had done. If ETA did not believe a matching requirement was
realistic, it should have addressed this when negotiating the grant. ETA's explanation
for this further supports the concerns raised in both of our HGJTI audits regarding how
these grants were awarded.

Finally, ETA maintains it was "not necessary or valuable" to formally evaluate all
deliverables. The OIG continues to believe that ETA should not accept unevaluated
deliverables as meeting grant objectives, nor should it disseminate or promote unproven
training or employment strategies or products. It is important to remember that the
purpose of the quarter billion dollar High Growth Training Initiative is to prepare workers


28                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-203-03-390
                                                                     Selected HGJTI Grants:
                                                                    Value Not Demonstrated

to take advantage of new and increasing job opportunities in high growth, high demand,
and economically vital sectors of the American economy. Therefore, ETA's position that
all training or employment strategies or products developed under these grants should
be disseminated without first assessing their effectiveness undermines the objectives of
this initiative and appears to be in conflict with the President's mandate that agencies be
"citizen-centered" and "results-oriented."




Elliot P. Lewis




U.S. Department of Labor – Office of Inspector General                                  29
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




30                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                          Selected HGJTI Grants:
                                                         Value Not Demonstrated




       Chapter Two: Summaries of Individual Grants




U.S. Department of Labor – Office of Inspector General                       31
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




32                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                                      Selected HGJTI Grants:
                                                                     Value Not Demonstrated

                National Retail Federation Foundation (National Retail)

ETA awarded a grant of $2,815,000 which was subsequently modified to $5,065,000 for
National Retail to work together with state Workforce Investment Boards and One-Stop
Centers to create models and certification programs for the retail industry. The grant
was funded using WIA Section 171 funds. The grant included matching funds of
$3,327,080, while the proposal for the modification included an additional $9,308,700 in
leveraged resources.

In our first audit, we found that there was no documentation of the initial review of the
proposal to identify the quality of the proposal, the relation of the proposal to HGJTI,
and whether the proposal clearly defined its objectives and outcomes. In addition, we
reported the matching requirement was not carried forward in grant modifications. As a
result, ETA did not demonstrate it selected the best or most appropriate grantee.

Objectives:
The grant did not in all cases clearly define measurable objectives. We developed a list
of objectives based on an analysis of the grantee’s statement of work, as incorporated
in the grant. We obtained concurrence with grantee officials on our identification of
grant objectives.

We identified 14 objectives, of which 9 were met, 2 were not met, and 3 were non-
determinable.

National Retail worked together with state Workforce Investment Boards and One-Stop
Centers to create models and certification programs for the retail industry. However,
Objectives 10 and 14, Table 1 were not met. The first unmet objective (Objective 10,
Table 1) was to train a minimum 3,500 job seekers, and place a minimum 2,500 job
seekers. However, 60 percent of the sampled job seekers were not verified, and 42
percent of the placement was not supported. National Retail relied on the information
submitted by its subgrantees and did not verify if the amounts were accurate, perform
reconciliations of participants, or obtain supporting documentation. According to 29
CFR 95.51(a), National Retail was required to manage and monitor all aspects of its
program; however, it did not verify data submitted by its partners before reporting to
ETA.

The second unmet objective (Objective 14, Table 1) was to provide feedback from
business and workforce locations using training models on their impact on individuals
receiving customer service certification, as well as their placement rates, retention rates,
advancement, wages, productivity and the store's customer satisfaction rating.
However, no data on placement rates, retention rates, advancement, wages,
productivity and customer satisfaction rating for participants was provided to
demonstrate the impact on individuals receiving customer service certification.

There were three objectives that were non-determinable. The first non-determinable
objective (Objective 3, Table 1) was to broaden capacity of a network of centers to


U.S. Department of Labor – Office of Inspector General                                   33
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

provide cross-industry training, tools, and credentials for employers in a variety of
industries related to customer service and sales, e.g., finance, hospitality, health care,
IT, call centers, insurance. The second non-determinable objective (Objective 6, Table
1) was to promote career opportunities and the value of portable skills as a means to
help employers attract, retain, and advance their workforce. The third non-determinable
objective (Objective 8, Table 1) was to leverage initial industry resources and
investment, with plans for centers to become self-sustaining components of the WIA
system and integral to employers' hiring and training processes. National Retail
provided supporting documentation demonstrating its effort in satisfying these
objectives. Since these objectives were not measurable, we were unable to determine
if the level of effort would be considered successful completion of the objective.


           Table 1 - Summary of Grant Objectives and Performance Results
                                   National Retail

                                              Objective Met
                                                Y = Yes                 Performance Results
          Grant Objectives
                                                 N = No
                                          ? = Non-determinable
1. Align 10 skills centers and
                                                                 Opened 15 skills centers during the
   employer-driven training models
                                                                 grant period in which the WIA and
   with state and local WIA and
                                                   Y             WIB operators were involved and
   WIB employment and training
                                                                 implemented the program in their
   plans, performance goals, and
                                                                 facilities.
   programs.
2. Create 6 regional skills center
   industry one-stop models that
                                                                 Created eight skill centers within six
   serve large and small employers
                                                   Y             DOL regions designated to serve as
   in shopping centers and other
                                                                 “Hubs” to be model centers.
   locations with large
   concentrations of employers.
                                                                 Broadened capacity by designing
                                                                 two skills centers that provided
3. Broaden capacity of a network of
                                                                 cross-industry training serving
   centers to provide cross-industry
                                                                 individuals interested in areas other
   training, tools, and credentials for
                                                                 than retail such as: accounting and
   employers in a variety of
   industries related to customer                  ?             finance, hotel, restaurant, and
                                                                 customer service industries.
   service and sales, e.g., finance,
                                                                 “Broaden capacity” is not
   hospitality, health care, IT, call
                                                                 measurable and therefore, we could
   centers, insurance.
                                                                 not determine if the level of effort
                                                                 was successful.
                                                                 Conducted a survey and
4. Work collaboratively and in                                   documented industry needs and
   partnership with the public                                   potential employer partners. Created
   workforce system and specific                   Y             five training models collaboratively
   employers to develop training                                 with four public workforce systems
   models that meet industry needs.                              and four employers that meet the
                                                                 industry needs.




34                                             U.S. Department of Labor – Office of Inspector General
                                                                   Report Number: 02-06-203-03-390
                                                                              Selected HGJTI Grants:
                                                                             Value Not Demonstrated

                                            Objective Met
                                              Y = Yes                 Performance Results
         Grant Objectives
                                               N = No
                                        ? = Non-determinable
                                                               Provided a career map for the retail
                                                               industry outlining three paths
                                                               individuals can take for career
                                                               growth toward the executive level
5. Document career paths to                                    such as division president. Created
   encourage workers and                                       literature encouraging employers to
   employers to invest in skill                  Y             invest in national retail certifications
   development, national                                       listing benefits such as increased
   certification, and career growth.                           productivity. Promoted the
                                                               certification to employees that
                                                               validated the development of
                                                               knowledge and critical skills
                                                               identified by the retail industry.
                                                               Promoted career opportunities by
                                                               developing a new Careers in
                                                               Retailing publication and coordinated
                                                               “job shadow” days. Promoted the
6. Promote career opportunities                                value of portable skills through retail
   and the value of portable skills                            certification in customer service by
   as a means to help employers                  ?             indicating the certification could be
   attract, retain, and advance their                          used in retail and other industries.
   workforce.                                                  “Promote career opportunities and
                                                               the value of portable skills” is not
                                                               measurable and therefore, we could
                                                               not determine if the level of effort
                                                               was successful.
                                                               Provided alternative education and
                                                               training settings with work-based
7. Create alternative education and
                                                               learning and technology options.
   training settings through work-
                                                               Developed and promoted the use of
   based learning, and state-of-the-
                                                               NRF University wired, a
   art technology and learning                   Y
                                                               comprehensive, state-of-the-art e-
   options for youth – using the
                                                               Learning platform. Provided youth
   retail and service sectors as
                                                               retail training for special needs high
   living laboratories.
                                                               school students in the Alternative
                                                               Route program.
                                                               Provided in kind support for more
                                                               than $3 million and created an
                                                               implementation guide, which
8. Leverage initial industry
                                                               explained how skills centers are
   resources and investment, with
                                                               designed to become self-sufficient
   plans for centers to become self-
                                                               and link employers with Workforce
   sustaining components of the                  ?             Investment System to meet their
   WIA system and integral to
                                                               hiring, training, and workforce
   employers' hiring and training
                                                               development needs. This objective
   processes.
                                                               was not clear as to the amount and
                                                               source of leveraging required,
                                                               therefore was non-determinable.




U.S. Department of Labor – Office of Inspector General                                                    35
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                             Objective Met
                                               Y = Yes                 Performance Results
         Grant Objectives
                                                N = No
                                         ? = Non-determinable
                                                                Tracked 342 employers that were
                                                                interested in utilizing skills centers.
9. Track and demonstrate results                                Provided results of a recruitment
   and replicable applications for                Y             event where 33 individuals were
   other industries.                                            hired in the retail sector. Expanded
                                                                training services into two other
                                                                industries.
                                                                a) We took exception to the training
                                                                of the job seekers because 60
10. Training and Career
                                                                percent of the sampled job seekers
    Development – Specifically, skills
                                                                were not verified as participants due
    centers and related program will,
                                                                to the lack of documentation
    (a) Train a minimum 3,500 job
                                                                demonstrating enrollment; b)
    seekers, (b) Certify a minimum of
                                                  N             Certified 9,520 participants; c) We
    3,000 individuals, (c) Place a
                                                                took exception to the placement of
    minimum 2,500 job seekers and
                                                                the job seekers because data
    (d) build capacity to offer train-
                                                                maintained consisted of 1,443 job
    the-trainer session for a
                                                                seekers, 58 percent of the placement
    minimum of 100 trainers.
                                                                goal; d) Trained 203 participants in
                                                                the “train the trainers” courses.
                                                                Multi-tier career ladder shared
                                                                framework was provided from Toys
                                                                “R” Us supporting “learning paths”
11. Development of Toys "R" Us                                  that articulated skills sets required in
    training model for associate level            Y             stores nationwide, from entry-level
    through assistant manager.                                  through first-level supervisor and
                                                                assistant manager, as well as the
                                                                supporting training curricula to
                                                                develop those skill sets.
                                                                Provided a continuous cross-industry
12. Development of Saks                                         career model with supporting training
                                                  Y
    management training model.                                  curricula and competencies from
                                                                Saks.
                                                                Made Toys “R” Us and Saks training
                                                                models available through train the
                                                                trainer sessions to public workforce
                                                                system locations with skill centers for
13. Sharing of Toys "R" Us and Saks
                                                                their use in pre-employment and
    training models with industry
                                                                incumbent worker training, offering a
    (CVS and Home Depot) and
                                                  Y             fully developed training program to
    provide train the trainer sessions
                                                                the public workforce system
    for select workforce system
                                                                designed for the competencies
    locations.
                                                                required specifically in retail.
                                                                Contracted with CVS and Home
                                                                Depot to be pilot sites for the training
                                                                models.




36                                            U.S. Department of Labor – Office of Inspector General
                                                                  Report Number: 02-06-203-03-390
                                                                              Selected HGJTI Grants:
                                                                             Value Not Demonstrated

                                             Objective Met
                                               Y = Yes                 Performance Results
         Grant Objectives
                                                N = No
                                         ? = Non-determinable
                                                                Provided documentation titled
14. Feedback from business and
                                                                RetaiLearning Leadership Training
    workforce locations using
                                                                Pilot Feedback and Data that lists
    training models on their impact in
                                                                strengths, weaknesses and
    individuals receiving customer
                                                                outcomes from a pilot course for
    service certification, as well as             N
                                                                training models. However, no data
    their placement rates, retention
                                                                on placement rates, retention rates,
    rates, advancement, wages,
                                                                advancement, wages, productivity
    productivity and the store's
                                                                and customer satisfaction rating for
    customer satisfaction rating.
                                                                participants was provided.

ETA Monitoring and Closeout:
ETA did not conduct on-site monitoring or desk reviews. Although two objectives were
not met, ETA certified during the closeout process that, “. . . the performance by the
grantee/contractor [was] acceptable.”

Matching Funds/Leveraged Resources:
National Retail provided additional resources of $3,327,080 from the skill centers
operators. However, in ETA’s justification to increase grant funding, National Retail’s
two sub-grantees were to provide leveraged resources of $9,308,700, but ETA did not
incorporate the amount into the grant agreement. In its Final Report on performance,
National Retail reported leveraged resources of $19,491,950 from its sub-grantees but
was unable to support this amount.

Sustained and Replicated:
National Retail received the grant to develop skills centers and certification programs.
In meeting the goals of the grant, National Retail created an implementation guide for
use in establishing a Retail Career Center. The grant required National Retail to
opened 10 Skills Centers. The process was then replicated at five additional skill
centers, which continued to operate.

Program Impact:
ETA did not determine the impact of the initiative on trainee outcomes (i.e. placement,
placement wages, and job retention), nor ensure National Retail provided the impact
data required by the grant. Moreover, ETA did not determine the overall effectiveness
of the grant initiative on HGJTI and if it should be replicated throughout the workforce
system. Nevertheless, ETA disseminated Skill Center Implementation Guide and
certification programs on Workforce3One 10 .




10
  ETA’s Workforce3One website provides direct access to HGJTI products and hosts Webinars,
podcasts, and electronic newsletters.

U.S. Department of Labor – Office of Inspector General                                                 37
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                   Downriver Community Conference (Downriver)

ETA awarded a $5 million grant to Downriver in partnership with Auto Alliance
International (Auto Alliance). The grant was funded using SUIESO funds of $3 million
and WIA Section 171 of $2 million. The grant was to assist in the development and
deployment of a sustainable training process, which could be applied to advanced
manufacturing systems in the United States. Downriver was required to provide
matching funds of $25 million.

In our first audit, we found that there was no documentation of the initial review of the
proposal to identify the quality of the proposal, the relation of the proposal to HGJTI,
and whether the proposal clearly defined its objectives and outcomes. In addition, we
reported the matching requirement was not carried forward in grant modifications. As a
result, ETA did not demonstrate it selected the best or most appropriate grantee.

Objectives:
We developed a list of objectives based on an analysis of the grantee’s statement of
work, as incorporated in the grant. We obtained concurrence with ETA and grantee
officials on our identification of grant objectives.

We identified four objectives, of which three objectives were met, and one objective was
not met and not clearly defined as to delivery to ETA. Objective 4, Table 2 was not met
because the model was not delivered to ETA, as required by the grant. Objective 4
required Downriver to create a replicable, sustainable model for large-scale worker skills
upgrades in advanced manufacturing systems. At grant completion, Downriver did not
provide this objective to ETA. Downriver officials stated that the model was created
using non-grant funds, prior to grant award, and was never intended to be made
available for replication and use by other organizations. Further, Objective 2 training
models and curricula were recently delivered to ETA, almost two years after the grant
was completed.

Moreover, All HGJTI grants required that “Grantees agree to give USDOL-ETA all
training models, curricula, technical assistance products, etc. developed with grant
funds. USDOL-ETA has the right to use, reuse, and modify all grant-funded products,
curricula, materials, etc.” Contrary to this grant requirement, Downriver’s grant stated,
“The Department of Labor has our assurances that we will share non-proprietary
curriculum and training programs that are gained from this federal grant program in
order for the agency to replicate effective sustainable training programs to other
American manufacturing facilities.” (Underscoring Added.) Despite these grant
provisions, Downriver officials stated that ETA never requested delivery of Objectives 2
and 4 throughout the grant process.




38                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                             Selected HGJTI Grants:
                                                                            Value Not Demonstrated

           Table 2 - Summary of Grant Objectives and Performance Results
                                     Downriver

                                         Objectives Met
                                            Y = Yes                  Performance Results
        Grant Objectives
                                             N = No
                                      ? = Non-determinable
1. Advanced Manufacturing
                                                             Grantee provided on-the-job training
   education and training for                  Y
                                                             for 1,465 employees.
   1,400 workers.
                                                             13 training models and curricula were
                                                             developed and used by Auto Alliance.
2. Classroom, technical, on-the-
                                                             The models and curricula were not
   job training models and
                                                             delivered to ETA, for almost 2 years
   accompanying curriculum for                 Y
                                                             after the grant was completed, and
   all vehicle manufacturing
                                                             ETA certified during the closeout
   systems.
                                                             process that performance was
                                                             acceptable.
                                                             Grantee provided certifications and
3. Industry recognized                                       accreditation to employees receiving
   certifications and accreditation            Y             training (i.e. North American Crane
   for all related training.                                 Bureau, Environmental Protection
                                                             Agency).
                                                             Downriver did not provide this objective
                                                             to ETA. Downriver officials stated that
4. Replicable, sustainable model
                                                             the objective was created using non-
   for large-scale worker skills               N
                                                             grant funds, prior to grant award and
   upgrades.
                                                             not intended for replication to be used
                                                             by other organizations.

ETA Monitoring and Closeout:
ETA conducted on-site monitoring, and although objectives and matching were not met
ETA certified during the closeout process that, “. . . the performance by the
grantee/contractor [was] acceptable.” Further, for Objective 2, Table 2 the models and
curricula were not delivered to ETA, for almost 2 years after the grant was completed
and closed.

Matching Funds:
Downriver was awarded the grant with the condition that matching funds of $25 million
would be provided. Supporting documents and final FSRs reported $14 million in
matching funds which was contributed by Auto Alliance. Based on a cost sharing ratio,
we questioned $2,182,158 of grant costs.

Sustained, But Not Replicated:
Auto Alliance sustained the initiative by continuing to update and use the training
models and curricula obtained from the grant to further enhance employee skill sets.
While not replicated elsewhere, grantee officials stated the training modules will be
made available to any future automotive plant that will require advanced skills used by
Auto Alliance for the manufacture of the Ford Mustang.



U.S. Department of Labor – Office of Inspector General                                              39
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

Program Impact:
ETA did not determine nor did the grant require Downriver to determine the impact of
the initiative on outcomes (i.e. enhancing skills-sets, increase in wages and retention
rates). ETA also did not determine the overall effectiveness of the grant initiative on
HGJTI and if it should be replicated throughout the workforce system.




40                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                            Selected HGJTI Grants:
                                                                           Value Not Demonstrated

           Evangelical Lutheran Good Samaritan Society (Good Samaritan)

ETA awarded a $1,877,517 grant to Good Samaritan to develop a Healthcare Career
Lattice Model for Enhanced Learning. The grant was funded using SUIESO funds. The
model was to incorporate unique and innovative features to create a learning culture
where workers would be better prepared and given both opportunities as well as options
for their own career growth and development. The grant required Good Samaritan to
provide matching funds of $1,204,000.

In our first audit, we found that the documentation of ETA’s initial review of the proposal
was incomplete, and did not address replicability, key participants, and comments
pertaining to whether or not to fund the proposal. As a result, ETA did not demonstrate
it selected the best or most appropriate grantee.

Objectives:
We identified five objectives, all of which were met.


           Table 3 - Summary of Grant Objectives and Performance Results
                                  Good Samaritan

                                       Objectives Met
                                          Y = Yes                  Performance Results
         Grant Objectives
                                           N = No
                                    ? = Non-determinable
                                                           Developed management
                                                           apprenticeship with ETA’s Office of
1. Apprenticeship model program                            Apprenticeship in the Home Health
   for Management Certificate                              and Senior Housing programs.
                                             Y
   Training in the healthcare                              Created a management training
   industry.                                               program with Bellevue University
                                                           towards bachelor and master degrees
                                                           in Long Term Nurse Care.
                                                           Developed a video called “It’s
                                                           Happening in Healthcare!” and
2. Recruitment video and an
                                             Y             distributed to 200 centers in 24 states.
   online virtual caregiver tool.
                                                           Also, developed an online virtual
                                                           caregiver tool.
                                                           Developed an online LPN degree
                                                           program with Lake Area Technical
                                                           Institute. This program is currently
3. Online License Practical Nurse
                                             Y             available to individuals residing in
   (LPN) program.
                                                           South Dakota, North Dakota,
                                                           Minnesota, Iowa, Nebraska and
                                                           Montana.
                                                           Good Samaritan developed virtual RN
4. Twenty online clinical nursing                          clinical nursing labs where 66 skill
                                             Y
   laboratories.                                           laboratories were developed and
                                                           piloted.




U.S. Department of Labor – Office of Inspector General                                                41
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                      Objectives Met
                                         Y = Yes                 Performance Results
        Grant Objectives
                                          N = No
                                   ? = Non-determinable
5. Online Bachelor of Science in
                                                          Developed online BSN and MSN
   Nursing (BSN) and Master of
                                            Y             programs where some of its
   Science in Nursing (MSN)
                                                          employees have enrolled.
   programs.

ETA Monitoring and Closeout:
ETA did not conduct on-site monitoring or desk reviews. Although the matching was not
met, ETA certified during the closeout process that, “. . . the performance by the
grantee/contractor [was] acceptable.”

Matching Funds:
Good Samaritan was awarded a grant with the condition that matching funds of
$1,204,000 would be provided. Good Samaritan provided documentation for matching
funds totaling $1,204,000, consisting of $822,806 in cash and $381,194 from third
parties. However, $177,459 of matching funds was from other Federal sources,
predominately the United States Department of Agriculture. Good Samaritan requested
and received approval to use other Federal funds from an ETA official. The use of other
Federal funds is contrary to 29 CFR 95.23(a)(5). ETA did not have the authority to
allow the use of other Federal funds as matching. Using a cost sharing ratio, we
questioned $276,729 of grant costs.

Sustained, But Not Replicated:
Good Samaritan grant required the development of a Healthcare Career Lattice Model
for Enhanced Learning and stated that the model would be able to be used as a
template for replication. The initiative has been sustained by Good Samaritan with its
educational partners: South Dakota State University, Lake Area Technical Institute, and
Bellevue University. While grantee officials stated that some parties have shown
interest in the model, there is no evidence of replication.

Program Impact:
ETA did not determine nor did the grant require Good Samaritan to determine the
impact of the initiative on trainee outcomes (i.e. certificates and degrees attained,
placement, placement wages, and job retention). ETA did not determine the overall
effectiveness of the grant initiative on HGJTI and if it should be replicated throughout
the workforce system. Nevertheless, ETA disseminated the initiative and provided
information on Workforce3One.




42                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-203-03-390
                                                                          Selected HGJTI Grants:
                                                                         Value Not Demonstrated

                          Shoreline Community College (Shoreline)

ETA awarded a $1,496,680 grant to Shoreline to adapt the General Service Technician
(GST) curriculum into Adult Basic Education and English-as-a-Second Language
instruction, and to conduct pilot classes. The grant was funded using WIA Section 171
funds of $746,680 and H-1B funds of $750,000. Shoreline was required to provide
$1,615,778 of matching funds.

In our first audit, we found that there were no exceptions related to grant procurement.

Objectives:
The grant did not in all cases clearly define measurable objectives. We developed a list
of objectives based on an analysis of the grantee’s statement of work, as incorporated
in the grant. We obtained concurrence with grantee officials on our identification of
grant objectives.

We identified five objectives, of which three were met, one was not met, and one was
non-determinable (Objectives 3 and 4, respectively, Table 4). Shoreline was to provide
GST training for 100 participants, (Objective 3) but documented only 57 participants in
the program. Shoreline did not maintain all participant data and relied on the
information submitted by its partners. According to 29 CFR 95.51(a), Shoreline was
required to manage and monitor all aspects of its program; however, it did not provide
documentation to support participant training.

Further, Objective 4 was to provide training to incumbent workers, but the grant did not
clearly specify the numbers to be trained. Shoreline documented training of 128
incumbent workers; however, we were unable to determine if the level of effort would be
considered successful completion of the objective.


          Table 4 – Summary of Grants Objectives and Performance Results
                                    Shoreline

                                      Objectives Met
                                         Y = Yes                  Performance Results
       Grants Objectives
                                          N = No
                                   ? = Non-determinable
                                                          Curriculum developed for a 45-credit
1. Certified curriculum for the                           GST certificate program, recognized by
                                            Y
   automotive industry.                                   the National Automotive Technicians
                                                          Education Foundation.
2. Supplemental lesson plans
                                                          Teacher’s guides for English-as-a-
   and instructional aids to
                                                          second- language and Adult Education
   adapt the National
                                                          instructors were developed with
   Automotive Technicians                   Y
                                                          supplemental lesson plans and
   Education Foundation GST
                                                          instructional aids for the GST
   curriculum for instruction to
                                                          curriculum.
   limited English speakers.



U.S. Department of Labor – Office of Inspector General                                             43
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                      Objectives Met
                                         Y = Yes                   Performance Results
      Grants Objectives
                                          N = No
                                   ? = Non-determinable
3. Provide GST training for 100
                                                          Shoreline reported 142 participants but
   limited English proficiency,
                                                          its records contained only 57
   out-of-school youth, and
                                            N             participants. Shoreline did not maintain
   other interested participants
                                                          all participant data and relied on
   using a new, innovative
                                                          information from its partners.
   model of instruction.
                                                          While the grant was not specific to the
                                                          number of trainees, Shoreline created a
                                                          Skills Panel with local businesses and
                                                          educators to identify skill upgrade
4. Provide training to incumbent                          training needs for incumbent workers.
   worker population.                       ?             Shoreline documented training of 128
                                                          incumbent workers; however, we were
                                                          unable to determine if the level of effort
                                                          would be considered successful
                                                          completion of the objective
                                                          Grant materials were disseminated
5. Make curriculum available                              nationally via the internet at
   for download through the
   internet, and as hardcopy
                                            Y             Workforce3One and
   material.                                              www.atcojobs.com, and as hard copy
                                                          materials at national conferences.

ETA Monitoring and Closeout:
ETA conducted on-site monitoring and desk reviews. The grant period of performance
ended June 30, 2007, however, the closeout was not completed. Per 29 CFR 95.71(a),
grantees are required to submit all financial, performance, and other reports for closeout
within 90 days.

Matching Funds:
Shoreline was awarded a grant with condition that matching funds of $1,615,778 would
be provided. Shoreline reported matching funds of $2,302,518, consisting of
$1,575,058 in cash and $727,460 from its partners.

Sustained and Replicated:
At the end of the grant, the curriculum was incorporated by Shoreline into its regular
program, and was replicated locally at Renton Technical College, South Seattle
Community College, Bellevue High School and the Job Corps Center in White Swan.

Program Impact:
ETA did not determine nor did the grant require Shoreline to determine the impact of the
initiative on participant outcomes (i.e. certificate attained, placement, placement wages,
and job retention). ETA did not determine the overall effectiveness of the grant initiative
on HGJTI and if it should be replicated throughout the workforce system. Nevertheless,
ETA disseminated the curriculum and supplemental aids on Workforce3One.




44                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 02-06-203-03-390
                                                                     Selected HGJTI Grants:
                                                                    Value Not Demonstrated

              Maryland Department of Labor, Licensing and Regulation
                         (Maryland Department of Labor)

ETA awarded a $1 million grant to Maryland Department of Labor to expand “Maryland's
movement towards a ‘demand driven’ workforce investment system.” The grant was
funded using WIA Section 171. The grant called for the establishment of the Maryland
Center for Sector-Based Workforce Development with the purpose of expanding the
state’s movement towards a demand driven workforce system. By using its Healthcare
Workforce Initiative as a model, Maryland Department of Labor in conjunction with the
Governors Workforce Investment Board used grant funding to enhance the Healthcare
Sector as well expansion of the initiative to several other industry sectors.

In our first audit, we found that ETA did not demonstrate that the grant met the criteria
for non-competitive award. Further, the documentation of the initial review of the
proposal was incomplete, missing key items such as sustainability, replicability,
partners, key participants, and comments pertaining to whether or not to fund the
proposal. Additionally, the required conflict of interest certification was not documented.
As a result, ETA did not demonstrate it selected the best or most appropriate grantee,
and procurement officials did not certify impartiality.

Objectives:
The grant did not in all cases clearly define measurable objectives. We developed a list
of objectives based on an analysis of the grantee’s statement of work, as incorporated
in the grant. We obtained concurrence with grantee officials on our identification of
grant objectives.

We identified six objectives, three of which were met, two were not met, and one was
non-determinable. Objective 3, Table 5 required Maryland Department of Labor to
provide 6 industry specific monographs to identify workforce issues, best practices and
suggested industry solutions. Objective 5, Table 5 required, after completion of the
monographs, summits to be held with workforce professionals, industry leaders, and
educators to develop a list of solutions. Although the grant required 6, Maryland
Department of Labor initiated 10 initiatives; however, at grant’s end, only 3 monographs
were completed and as a result only 3 summits were completed. Objective 6, Table 5
required participation in technical assistance and outreach strategies, but unclear as to
the type and quantity required. Maryland Department of Labor provided supporting
documentation demonstrating effort in this area. However, we were unable to
determine if the level of effort would be considered successful completion of the
objective.




U.S. Department of Labor – Office of Inspector General                                   45
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

          Table 5 – Summary of Grant Objectives and Performance Results
                         Maryland Department of Labor

                                        Objectives Met
                                           Y = Yes                  Performance Results
        Grant Objectives
                                            N = No
                                     ? = Non-determinable
                                                            Developed the Maryland Center for
1. Establish the Maryland Center
                                                            research, facilitation, technical
   for Sector-Based Workforce                 Y
                                                            assistance and support of sector-
   Development.
                                                            based initiatives.
                                                            Initiated 10 “Sector-Based Initiatives”:
2. Initiate three “Sector-Based                             Healthcare, Aerospace,
   Initiatives” each year (six                              Hospitality/Tourism, Bioscience,
                                              Y
   based on original period of                              Education, IT, Retail Services,
   performance).                                            Construction/Building, Manufacturing
                                                            and Transportation/Warehousing.
3. Develop three industry specific
                                                            Completed only three monographs for:
   monographs each year (six
                                              N             Healthcare, Aerospace and
   based on original period of
                                                            Hospitality/Tourism.
   performance).
4. Develop a policy guide for
                                                            Created an Industry Initiative
   Sector-Based Initiatives (five
                                                            Comprehensive Process Guide
   phases: Organization,
                                              Y             defining and implementing its
   Research, Industry Summit,
                                                            demand-driven approach to workforce
   Plan of Action, and Implement
                                                            development.
   Plan of Action).
                                                            Summits are held after completion of
                                                            the monograph. Therefore, at grants
5. Conduct industry summits.                  N             end, only three summits were
                                                            conducted: Healthcare, Aerospace
                                                            and Hospitality/Tourism.
6. Participate in technical
                                                            Provided presentations, technical
   assistance and DOL’s capacity
                                                            assistance and contributed to the
   building and outreach
   strategies, including but not              ?             Workforce3One web space. This
   limited to contributing to the                           objective was not clear as to the type
                                                            and quantity required, therefore was
   Workforce3One integrated web
                                                            non-determinable.
   space.

ETA Monitoring and Closeout:
ETA did not conduct on-site monitoring or desk reviews. The grant period of
performance ended June 30, 2007, however, the closeout was not completed. Per 29
CFR 95.71(a), grantees are required to submit all financial, performance, and other
reports for closeout within 90 days.

Matching Funds/Leveraged Resources:
Maryland Department of Labor was not required under the grant to provide matching
funds or leveraged resources.




46                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-06-203-03-390
                                                                      Selected HGJTI Grants:
                                                                     Value Not Demonstrated

Sustained, But Not Replicated:
Maryland Department of Labor continues to fund the Center activities using WIA set-
aside funding. Although the grant required them to initiate work in 6 industries, it
initiated work on 10 industries, but completed all required objectives in only 3 industries
by grant’s end. Maryland Department of Labor continues work on objectives for the
remaining 7 initiatives, and for all 10 industries continues to provide outreach to local
areas and facilitate implementation committees.

Program Impact:
ETA did not determine nor did the grant require Maryland Department of Labor to
determine the impact of the initiative on the industry sector’s workforce shortages. ETA
did not determine the overall effectiveness of the grant initiative on HGJTI and if it
should be replicated throughout the workforce system. Nevertheless, ETA
disseminated the Policy Guide for Sector Based Initiatives on Workforce3One.




U.S. Department of Labor – Office of Inspector General                                   47
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                    The Manufacturing Institute

ETA awarded a $498,520 grant to The Manufacturing Institute to develop a 'Dream it,
Do It' Careers Campaign for Advanced Manufacturing Renewal. The grant was funded
using WIA Section 171. The campaign goals were to redefine the image of
manufacturing with young persons; forge new and/or strengthen existing relationships
between local manufacturers and the local public workforce system; strengthen ties with
community colleges, technical institutions so they can bring new workers into the
manufacturing field; and influence policy as it relates to competitive environment for
manufacturers. The grant required The Manufacturing Institute to provide $1,075,000 of
matching funds.

In the first audit, we reported that the matching requirement was not carried forward in
grant modifications.

Objectives:
We identified a list of objectives based on an analysis of the grantee’s statement of
work, as incorporated in the grant and with additional clarification from ETA. We
obtained concurrence with ETA and grantee officials on our identification of grant
objectives. All five objectives were met.


           Table 6 - Summary of Grant Objectives and Performance Results
                              Manufacturing Institute

                                       Objectives Met
                                          Y = Yes                   Performance Results
       Grant Objectives
                                           N = No
                                    ? = Non-determinable
1. Launch a campaign to assist                             Launched a marketing campaign called
   companies meet their                                    "Dream it, Do it" to inform youth, parents
   demand for young entrants                               and educators of opportunities in
   into the manufacturing labor              Y             advanced manufacturing. Literature was
   pipeline by dispelling                                  distributed in magazines, including ETA’s
   antiquated stereotypes of                               “In Demand,” and advertising was placed
   manufacturing jobs.                                     on highway billboards
                                                           Tailored the campaign for regional
2. Create local partnerships in
                                                           partners in Kansas City, Nebraska,
   six regions in order to tailor
                                                           Southwest Virginia, Northeast Ohio,
   the "Dream It, Do It"
                                             Y             Southeast Indiana and Virginia
   campaign to particular local
                                                           (statewide) using local resources.
   circumstances and to
                                                           Signed agreements with six regional
   leverage local resources.
                                                           partners.
3. Ensure that local
   partnerships are developed
   between employers and                                   Developed local partnerships between
   training providers so that                Y             employers and training providers through
   interested youth can find the                           the "Dream it, Do it" Campaign.
   manufacturing training they
   need.



48                                           U.S. Department of Labor – Office of Inspector General
                                                                 Report Number: 02-06-203-03-390
                                                                             Selected HGJTI Grants:
                                                                            Value Not Demonstrated

                                      Objectives Met
                                         Y = Yes                   Performance Results
       Grant Objectives
                                          N = No
                                   ? = Non-determinable
                                                          “Dream it, Do it” website created to
4. Create a website to provide                            provide youth with detailed career
   youth with information on                Y             profiles and a career toolkit to assess
   manufacturing careers                                  their dream career based on interests
                                                          and abilities.
                                                          Held 3 best practices conference
5. Identify and replicate best
                                                          summits, and provided ETA with a
   practices to connect youth to
                                                          replication toolkit, disk brand guide, and
   education and career
                                            Y             a How to Guide for Implementing
   opportunities in the
                                                          Manufacturing Services at One Stop
   advanced manufacturing
                                                          Career Centers for dissemination. Best
   sector.
                                                          practices were replicated at nine areas.

ETA Monitoring and Closeout:
ETA did not conduct on-site monitoring or desk reviews. ETA certified during the
closeout process that, “. . . the performance by the grantee/contractor [was]
acceptable.”

Matching Funds:
The grant required Manufacturing Institute to provide $1,075,000 in matching funds.
Although subsequent grant modifications failed to include the matching requirement, we
found that the Manufacturing Institute provided matching funds of $1,091,752.

Sustained and Replicated:
According to the grantee, this campaign was launched and developed in nine areas in
the United States. We verified a sample of these replicated sites through local
newsletters and regional partnership agreements. Regional and local partners of the
‘Dream-it, Do it’ Careers Campaign have sustained the project using other funds.

Program Impact:
ETA did not determine nor did the grant require Manufacturing Institute to determine the
impact of the marketing campaign on attracting new workers to the manufacturing field.
Moreover, ETA did not assess the overall effectiveness of the grant on HGJTI or
whether it should be replicated throughout the workforce system. Despite the lack of
information on initiative effectiveness, ETA disseminated Manufacturing Institute’s
products on Workforce3One.




U.S. Department of Labor – Office of Inspector General                                                 49
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                      1199 SEIU League Grant Corporation (SEIU)

ETA awarded a $192,500 grant to SEIU to develop a program to provide low level
healthcare workers with the literacy and academic skills needed to pass the entrance
exam for Licensed Practical Nurse (LPN) training. The grant was funded using
SUIESO. The grant required SEIU to provide matching funds of $176,695.

In the first audit, we reported that the documentation of ETA’s initial review of the
proposal was incomplete, and did not address sustainability, replicability, partners, key
participants, and contained no recommendations on whether to fund the proposal. As a
result, ETA did not demonstrate it selected the best or most appropriate grantee.

Objectives:
We identified six objectives, of which three were met, two were not met and one was
non-determinable. Objective 2, Table 7 required 50 percent of the students pass an
entrance exam for an LPN program. We found that 16 percent of the students passed
an entrance exam and entered an LPN program. Grantee officials indicated that this
was due to the low literacy levels of students. Further it stated that the 16 percent rate
far exceeded their previous experience of 7 percent. Objective 3, Table 7 SEIU was to
improve the success rate of students in pre-LPN classes that continue on to complete
the LPN program by 50 percent. SEIU stated it did not track or report the improvement
of the success rate that completed the LPN program. Objective 6, Table 7 required
dissemination of recommendations and best practices to educators, researchers, and
health care practitioners throughout the country but was unclear as to the extent and
quantity required. We noted that “Sharing of Initiatives” was limited to other SEIU
organizations and question whether this distribution constituted an acceptable objective.


          Table 7 - Summary of Grant Objectives and Performance Results
                                      SEIU

                                   Objectives Met
                                      Y = Yes                   Performance Results
      Grant Objectives
                                       N = No
                                ? = Non-determinable
1. Ten pre-LPN classes with a
   projected total of 175
   students. Classes included                             Provided 9 classes with 162
   recruitment,                           Y               students. The objective was
   counseling/assessment,                                 substantially met.
   implementation and
   evaluation.
2. Have 50 percent of the                                 Of the 162 students, 26 or 16
   students pass an entrance              N               percent passed an entrance exam
   exam for a LPN program.                                and entered an LPN program.




50                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                        Selected HGJTI Grants:
                                                                       Value Not Demonstrated

                                      Objectives Met
                                         Y = Yes                 Performance Results
       Grant Objectives
                                          N = No
                                   ? = Non-determinable
3. Improve success rate of
                                                          SEIU stated it did not track or report
   students in pre-LPN classes
                                                          the improvement of the success
   that continue on to complete              N
                                                          rate that completed the LPN
   the License Practicing Nurse
                                                          program.
   LPN program by 50 percent.
                                                          Created a model of pre-LPN literacy
4. Develop a replicable
                                                          that could be used as a preparatory
   demonstration model of
                                                          course for an LPN program.
   contextualized literacy for
                                             Y            Although the model can be
   similar programs within the
                                                          replicated, the grant results were
   adult education and health
                                                          not as successful as intended. (See
   care industries.
                                                          Objective 2.)
5. Compare participants in the
                                                          Performed a pre-LPN program
   pre-LPN program with non-
                                                          comparison of nine categories,
   participants in terms of                  Y
                                                          between SEIU and the Greater New
   successful entry into the LPN
                                                          York Education Fund.
   program.
                                                          SEIU stated that pre-LPN initiatives,
                                                          through the Health Career
6. Disseminate
                                                          Advancement Program, were
   recommendations and best
                                                          shared with other SEIU
   practices to educators,
   researchers, and health care
                                             ?            organizations throughout the
                                                          country. This objective was not
   practitioners throughout the
                                                          clear as to the extent and quantity
   country.
                                                          required, therefore was non-
                                                          determinable.

ETA Monitoring and Closeout:
ETA did not conduct on-site monitoring, but performed desk reviews. Although three
objectives were not met, ETA certified during the closeout process that, “. . . the
performance by the grantee/contractor [was] acceptable.”

Matching Funds:
SEIU was awarded a grant with the condition that matching funds of $176,695 would be
provided. SEIU supported cash matching funds of $176,695.

Sustained and Replicated:
SEIU’s grant was to provide a literacy pre-LPN program. While SEIU did not meet its
grant objective of 50 percent of the students passing an entrance exam into an LPN
program, SEIU continues the program locally in New York City and has replicated it
within its organizational structure in Syracuse, New York. SEIU officials stated that the
achieved 16 percent far exceeds their previous experience of 7 percent. Moreover,
SEIU is considering adopting the program at its West Coast and Massachusetts training
sites.




U.S. Department of Labor – Office of Inspector General                                             51
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

Program Impact:
ETA did not determine the overall effectiveness of the grant initiative on HGJTI and if it
should be replicated throughout the workforce system. However, as specified in the
grant, an external evaluation was performed. The evaluation indicated that the
outcomes fell short of those projected in the original project design, because the
timeline was overly ambitious for this population with limited literacy and language skills.




52                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                                         Selected HGJTI Grants:
                                                                        Value Not Demonstrated

                    U.S. Hispanic Chamber of Commerce Foundation
                            (Hispanic Chamber of Commerce)

ETA awarded a $136,000 grant to the Hispanic Chamber of Commerce, in partnership
with BMW of North America, to promote career opportunities in the automotive industry,
targeting candidates within the Hispanic/Latino communities, and to address the serious
shortage of skilled automotive technicians nationwide. The grant was funded using WIA
Section 171. Hispanic Chamber of Commerce and BMW were to offer training through
“Metro2Step,” an automotive technology scholarship program. The grant required
Hispanic Chamber of Commerce to provide $246,000 in matching funds.

In our first audit, we found that the grant’s $246,000 matching funds requirement had
not been carried forward in subsequent grant modifications.

Objectives:
We identified eight clearly defined objectives, of which six were met, and two were not
met. Objective 2, Table 8 was the development of a bi-lingual career information web
portal for BMW automotive career opportunities, but a Spanish language website was
not developed. Grantee officials stated that, as Hispanic Chamber of Commerce
worked with BMW during the project, it was clear that individuals looking for project-
related information were English speaking; therefore, a Spanish-specific website was
not necessary. The bi-lingual career information web portal was intended to be part of a
sustainable and replicable initiative. As such, the grantee’s unilateral decision not to
provide this objective was inappropriate. Objective 3, Table 8 was to create a coaching-
approach through implementation of a formal one-on-one mentoring program and an e-
monitoring program follow-up. Although it implemented a formal one-on-one mentoring
program, the Hispanic Chamber of Commerce did not maintain documentation to
support implementation of an e-monitoring program follow-up.


           Table 8 - Summary of Grant Objectives and Performance Results
                         Hispanic Chamber of Commerce

                                      Objectives Met
                                         Y = Yes                 Performance Results
       Grant Objectives
                                          N = No
                                   ? = Non-determinable
                                                          Developed recruitment and training
1. Develop a recruitment and
                                                          generic model at BMW dealerships in
   apprenticeship career-lattice
                                                          Ontario, California and Miami, Florida.
   model. Twenty trainees
                                            Y             Twenty-two participants received
   were to participate in the
                                                          classroom and hands-on training.
   pilot, with a resulting model
                                                          Twenty participants were placed at
   to be used in the future.
                                                          BMW.




U.S. Department of Labor – Office of Inspector General                                              53
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                                      Objectives Met
                                         Y = Yes                   Performance Results
       Grant Objectives
                                          N = No
                                   ? = Non-determinable
2. Provide a portal to BMW                                 Grantee officials stated that, as
   automotive career                                       Hispanic Chamber of Commerce
   opportunities to Hispanic                               worked with BMW during the project,
   youth and their                                         it was clear that individuals looking for
                                            N
   parents/guardians through                               project-related information were
   the development of bi-lingual                           English speaking; therefore, a
   career information via the                              Spanish-specific website was not
   web.                                                    necessary.
3. Create a coaching-approach                              Participants were assigned to
   through implementation of a                             mentors while in training. However,
   formal one-on-one mentoring              N              no documentation was maintained to
   program and an e-monitoring                             support implementation of an e-
   program follow-up.                                      monitoring program follow-up.
                                                           Skills assessment was conducted to
4. Identify necessary key skills                           identify necessary key skills level
   levels through Work Keys                 Y              through the Preliminary Work Keys
   assessment.                                             Job Profile Report for entry level
                                                           technician jobs.
                                                           Participants received tool
5. Provide financial assistance
                                                           scholarships from Snap-On Tools, as
   in the form of a tool
                                            Y              discounts on start-up tool sets. The
   scholarship to each program
                                                           balance of tool costs was paid by
   graduate.
                                                           BMW and grant funds.
6. Provide on-the-job training                             Participants received on-the-job
   wages to participants over a             Y              training wages of $14 per hour, 40
   twenty week period                                      hours per week for 20 weeks.
7. Provide a lost-earnings
                                                           Twenty one BMW Mentors were each
   compensation stipend to
                                            Y              provided a $1,000 stipend for the
   mentors offering to share
                                                           duration of the 20 week program,
   their skills.
8. Provide bilingual tutorial
   materials to assist students
   (who may be linguistically
   isolated) in successfully                               Participants were provided bilingual
   gaining ASE certifications in                           tutorial materials to assist them in
                                            Y
   the areas of Suspension and                             gaining Automotive Service
   Steering (A4),                                          Excellence certifications.
   Electrical/Electronics
   Systems (A6) and Brake
   (A5) and Engine Repair (A1).

ETA Monitoring and Closeout:
ETA did not conduct any on-site monitoring or desk reviews. Although two objectives
were not met, ETA certified during the closeout process that, “. . . the performance by
the grantee/contractor [was] acceptable.”

Matching Funds:
The grant required Hispanic Chamber of Commerce to provide matching funds of
$246,000. Hispanic Chamber of Commerce supported $238,095 in matching funds


54                                         U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 02-06-203-03-390
                                                                          Selected HGJTI Grants:
                                                                         Value Not Demonstrated

from BMW and stated Snap-On Tools provided discounts on start-up tool sets to
program participants. We take no exception to the grantee’s meeting matching
requirements.

Not Sustained or Replicated:
Although Hispanic Chamber of Commerce and its training partner, BMW, continued the
initiative, the initiative did not specifically target Hispanics/Latinos. Further, the initiative
has not been replicated at other automotive manufacturers.

Program Impact:
ETA did not determine nor did the grant require Hispanic Chamber of Commerce to
determine the impact of the initiative on participant outcomes (i.e. placement wages,
and job retention). ETA did not determine the overall effectiveness of the grant initiative
on HGJTI and if it should be replicated throughout the workforce system.




U.S. Department of Labor – Office of Inspector General                                         55
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

               Association of Career Firms North America (Career Firms)

ETA awarded Career Firms a $99,000 grant to develop a plan and process to mobilize
the private-sector outplacement capacity to address workforce needs in times of local,
state, or national emergencies when large number of individuals becomes unemployed.
The grant was funded using WIA Section 171. The grant required Career Firms to
provide $100,000 in matching funds.

In the first audit, we reported that the required conflict of interest certification was not
documented. As a result, ETA procurement officials did not certify impartiality.

Objective:
In this audit, we identified that the objective was clearly defined in the grant, and
provided to ETA. However, ETA officials stated the end product was not as useful as
anticipated and plans on using it to develop something that could be used at State and
local levels.


            Table 9 – Summary of Grant Objective and Performance Result
                                   Career Firms

                                         Objective Met
                                           Y = Yes                    Performance Result
        Grant Objective
                                            N = No
                                     ? = Non-determinable
                                                            ETA was provided with a detailed plan
                                                            for the organization and implementation
                                                            of a “National Emergency Response
Detailed plan for the organization                          Reemployment Standby system” that
and implementation of a                                     included a recommended set of
                                              Y
“National Emergency Response                                relationships within the outplacement
Reemployment Standby system.”                               industry, DOL and the publicly funded
                                                            workforce system. However, ETA
                                                            officials stated the end product was not
                                                            as useful as anticipated.

ETA Monitoring and Closeout:
ETA did not conduct any on-site monitoring or desk reviews. During closeout, ETA
certified that, “. . . the performance by the grantee/contractor [was] acceptable” even
though Career Firms did not provide the required matching funds and ETA officials
stated the end product was not as useful as anticipated.

Matching Funds:
The grant required Career Firms to provide $100,000 in matching funds. We found that
Career Firms did not account for or report any matching funds on the FSR. Career
Firms claimed it provided the matching funds, but was never informed by ETA of the
need to track and report the funds. Career Firms provided an unsupported list of
estimated hours and travel costs by board members who they said worked on the grant
objective. Using a cost sharing ratio, we questioned the entire grant of $99,000.


56                                            U.S. Department of Labor – Office of Inspector General
                                                                  Report Number: 02-06-203-03-390
                                                                   Selected HGJTI Grants:
                                                                  Value Not Demonstrated


Not Sustained or Replicated:
Career Firms developed the required plan; however, the plan has not been sustained or
replicated.

Program Impact:
Career Firms officials expressed concern about potential implementation, indicating that
State officials wanted individualized plans because a generic plan, as currently
designed, did not satisfy the needs where large numbers of individuals become
unemployed. ETA officials stated that the end product was not as useful as anticipated,
but they intend to use it to develop something that could be implemented at State and
local levels.




U.S. Department of Labor – Office of Inspector General                                57
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

                           Brevard Community College (Brevard)

ETA awarded a $98,560 grant to Brevard to support the operation of launch facilities
and conduct at least one sub-orbital launch at Launch Complex 47 at Cape Canaveral
Air Force Station. Called Project Genesis, the initiative was intended to demonstrate
technologies required for the technical workforce of the future, foster interest in
academics and expand work in technical fields through motivational exposure to real
world experiences. The grant was funded using WIA Section 171 funds and required
Brevard to provide $50,000 in matching funds.

In our first audit, we found that ETA had not documented its initial review of the proposal
to identify the quality of the proposal, the relation of the proposal to HGJTI, and whether
the proposal clearly defined its objectives and outcomes. In addition, ETA could not
demonstrate that the required conflict of interest certification had been completed. As a
result, ETA could not demonstrate it selected the best or most appropriate grantee, and
or that procurement officials were impartial.

Objectives:
The statement of work, as incorporated in the grant, required Brevard to provide five
objectives of which, one was not measurable. The objectives pertained to arranging for
launch demonstrations, but did not include requirements to determine what interest in
this industry these demonstrations generated. However, Brevard provided supporting
documentation demonstrating its effort in satisfying four objectives.


          Table 10 - Summary of Grant Objectives and Performance Results
                                      Brevard

                                      Objectives Met
                                         Y = Yes                   Performance Results
       Grant Objectives
                                          N = No
                                   ? = Non-determinable
1. Operate Complex 47 on                                  Applied launch safety standards by
   Cape Canaveral Air Force                               creating a Launch Test Directive and
   Station in accordance with               Y             Emergency Response Plan that is now
   operational standards for                              the foundation for all safety operations at
   safety and launch readiness.                           Complex 47.
2. Establish criteria and select
   groups of students in K-12
                                                          Documented participant selection criteria
   and beyond for the
                                                          that included provisions for age, and
   opportunity to develop,
                                                          academic performance. Offered a
   prepare, and fly payloads for            Y
                                                          workshop for 21 selected Civil Air Patrol
   educational research in
                                                          Cadets on August 3, 2005 that was
   space related topics on live
                                                          reported in the local newspaper.
   solid rockets from a major
   national range.




58                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-06-203-03-390
                                                                               Selected HGJTI Grants:
                                                                              Value Not Demonstrated

                                        Objectives Met
                                           Y = Yes                   Performance Results
       Grant Objectives
                                            N = No
                                     ? = Non-determinable
3. Arrange for observational
   visits and launch viewing for                            Arranged and conducted six rocket
   students, faculty, counselors,                           launches and observational visits for
   and employers sponsoring                                 students, faculty, counselors, and
                                              Y
   this work to promote high                                employers to promote interest in
   levels of interest in workforce                          workforce development from a practical
   development from a practical                             perspective.
   perspective.
4. Provide selected students
   the opportunity to participate                           Provided pictures of students
   in at least one complete                                 participating in one rocket launch at
                                              Y
   launch project at Complex 47                             Complex 47 on Cape Canaveral Air
   on Cape Canaveral Air Force                              Force Station
   Station.
                                                            Provided an educational experience in a
                                                            real world launch environment to
                                                            motivate students to enter technical
                                                            careers by conducting a workshop for 21
                                                            students to build and launch model
5. Provide a unique and directly                            rockets. Provided six observational
   applicable educational                                   launches of commercial rockets to
   experience in a real world                               students. Conducted outreach for 110
   launch environment to
                                              ?             Civil Air Patrol Cadets that spent one
   motivate students to enter                               weekend (June 2-4, 2006) learning about
   technical careers.                                       the aerospace industry which included
                                                            behind the scene tour of Kennedy Space
                                                            Center and Cape Canaveral Space
                                                            Station as well a viewing of the
                                                            planetarium at Brevard Community
                                                            College.

ETA Monitoring and Closeout:
ETA conducted on-site monitoring and desk reviews. Closeout had been completed,
and ETA certified during the closeout process that, “. . . the performance by the
grantee/contractor [was] acceptable.” However, we found one objective was non-
determinable as to whether it had been accomplished.

Matching Funds:
The grant required Brevard to provide $50,000 in matching funds. Brevard provided
$121,187 in matching funds, consisting of $79,190 from Space Florida and $41,997
from Brevard.

Sustained and Replicated:
At the end of the grant, Brevard obtained support of the U.S. Air Force and Space
Florida to sustain the initiative. Further, Space Florida has replicated the initiative and
will provide launch demonstrations.



U.S. Department of Labor – Office of Inspector General                                                59
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

Program Impact:
While the initiative was sustained and replicated, the grant did not require Brevard to
determine whether the educational experience motivated students to enter technical
careers. ETA did not determine the impact of the initiative on those who participated.
Further, ETA did not determine if the initiative should be replicated throughout the
workforce system.




60                                      U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-203-03-390
                                                          Selected HGJTI Grants:
                                                         Value Not Demonstrated




Appendices




U.S. Department of Labor – Office of Inspector General                       61
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




62                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                                   Selected HGJTI Grants:
                                                                  Value Not Demonstrated

                                                                          APPENDIX A

BACKGROUND

HGJTI was a strategic effort to prepare workers to take advantage of new and
increasing job opportunities in high growth, high demand, and economically vital sectors
of the American economy. HGJTI was undertaken by ETA’s BRG to engage business,
education and the workforce investment system to work together to develop solutions to
the workforce challenges facing high growth industries. Fields like healthcare,
information technology, and advanced manufacturing have jobs and solid career paths
left vacant due to a lack of people qualified to fill them. HGJTI targets education and
skills development resources toward helping workers gain the skills they need to build
successful careers in these and other growing industries.

BRG identified 13 sectors that are: (1) projected to add substantial numbers of new jobs
to the economy or affect the growth of other industries; or (2) being transformed by
technology and innovation requiring new skills sets for workers. During the period
July 1, 2001 through March 31, 2007, ETA awarded $271 million for 157 HGJTI grants.
Of this, ETA accepted unsolicited proposals and awarded 133 non-competitive grants
for $235 million. One grant for $7 million was awarded to a specific entity based on
Congressional direction. The remaining 23 grants for $29 million were awarded
competitively through open grant solicitations.

On March 28, 2007, OIG received a request from Senator Tom Harkin, Chairman of the
Subcommittee on Labor, Health and Human Services, and Education and Related
Agencies, to look into the procurement and program results of non-competitive HGJTI
awards. After discussion with Senator Harkin’s office, OIG agreed to perform two
audits. The first audit on grant procurement was completed and is summarized below.
The second audit is the subject of this report.

On November 2, 2007, the OIG issued report number 02-08-201-03-390 on ETA’s
procurement of non-competitive HGJTI grants. We reported that for 39 sampled non-
competitive HGJTI grants, totaling $70 million, ETA generally could not demonstrate
that proper procurement procedures were followed. Specifically,

   •   Decisions to award non-competitive grants were not adequately demonstrated.
   •   Reviews of unsolicited proposals were not consistently documented.
   •   Required conflict of interest certifications were not documented.
   •   Matching requirements were not carried forward in grant modifications.




U.S. Department of Labor – Office of Inspector General                                63
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




64                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                                         Selected HGJTI Grants:
                                                                        Value Not Demonstrated

                                                                                    APPENDIX B

 OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

 Objectives

 We designed our audit objectives to answer the following questions:

     1. Did grantees accomplish their grant objectives?

     2. Were additional matching funds or leveraged resources provided by grantees as
        required?

     3. Did the selected HGJTI grants result in expanded system capacity for skills
        training and competency development?

 Scope

 We conducted this audit in accordance with Generally Accepted Government Auditing
 Standards for performance audits. Those standards require that we plan and perform
 the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
 findings and conclusions based on the audit objectives. We believe that the evidence
 obtained provides a reasonable basis for our findings and conclusions based on the
 audit objectives.

 The audit was limited to performance results. We did not seek to validate financial
 results, as the objectives did not include a review of reported financial data.
 Accordingly, we do not express any assurance that reported costs were allowable,
 allocable, and reasonable.

 We selected 10 HGJTI grants totaling $15.5 million with various grant periods ranging
 from March 24, 2003 through June 30, 2007. The selected grants were:

                                                                                       Additional
                  Grantee Name                      Grant Period        Amount         Resources
National Retail Federation Foundation             03/24/03-06/30/06    $5,065,000     $12,635,780
Downriver Community Conference                    06/22/04-06/30/06     5,000,000      25,000,000
Evangelical Lutheran Good Samaritan Society       05/14/04-06/30/06     1,877,517       1,204,000
Shoreline Community College                       12/01/04-06/30/07     1,496,680       1,615,778
MD Dept. of Labor, Licensing, and Regulation      07/01/04-06/30/07     1,000,000               0
The Manufacturing Institute                       12/01/04-05/31/07       498,520       1,075,000
1199 SEIU League Grant Corporation                06/01/04-11/15/06       192,500         176,695
U.S. Hispanic Chamber of Commerce Foundation      12/01/04-11/30/05       136,000         246,000
Association of Career Firms North America         07/01/05-11/01/06        99,000         100,000
Brevard Community College                         12/01/04-06/30/06        98,560          50,000
                          Total Selected Grants                       $15,463,777     $42,103,253




 U.S. Department of Labor – Office of Inspector General                                       65
 Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated

Fieldwork was conducted between November 11, 2007, and January 31, 2008, at ETA
headquarters in Washington, DC, and the selected grantee offices throughout the
United States.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan the performance audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. However, we did not assess overall internal controls.

Methodology

In planning and performing the audit, we considered internal controls related to the
achievement of performance objectives by obtaining an understanding and performing
limited tests of internal controls for ETA and the selected grantees. Based on the
grantee and specific grant requirements, internal controls related to the performance of
grant objectives would include: eligibility and program services; performance goals,
objectives, and measurement; matching; reporting; and sub-recipient monitoring. Our
consideration of grantees’ internal controls would not necessarily disclose all matters
that might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.
Further, the nature, timing and extent of audit procedures were determined by the
significance of the information and the level of detail presented in our findings and
conclusions in light of the audit objectives.

From 39 grants sampled during the audit of HGJTI: Decisions for Non-Competitive
Awards Not Adequately Justified, Audit Report Number 02-08-201-03-390, we obtained
grant ending dates and identified 19 grants which ended on or before July 31, 2007.
We selected 10 of 19 grants using stratified random sampling, however the grants were
not statistically representative of HGJTI. Therefore, our results and conclusions only
pertain to the grants audited.

We reviewed ETA’s oversight policies, and its evaluation of HGJTI performed by the
Urban Institute. For each selected grant, we reviewed the grant agreement and
modifications; ETA monitoring reports; quarterly performance reports and final program
evaluation reports; grant close-out documents; and other supporting documents. Each
grantee was provided with a Statement of Facts to verify our understanding of the facts
as obtained from case files and key staff of grantee. We interviewed grantee staff and
managers, ETA program monitors, and BRG staff regarding grant objectives,
sustainability, and replicability. Based on specific grant requirements, we performed the
following procedures.

     •   Training objectives - selected random samples of trainees and reviewed
         documentation related to eligibility, training services, and outcomes.
     •   Non-training objectives – compared the objective to grant requirements.




66                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-203-03-390
                                                                   Selected HGJTI Grants:
                                                                  Value Not Demonstrated

   •   Matching funds and leveraged resources - reviewed documentation for
       compliance with the grant and other Federal requirements.

Criteria

We tested compliance with Federal requirements using the following criteria:

   •   Executed grant agreements, as modified, for the 10 selected grants

   •   Uniform Administrative Requirements (29 CFR 95 or 29 CFR 97)

   •   Employment and Training Order No. 1-03, Improving Administration of Grants
       within the Employment and Training Administration

   •   Department of Labor Manual Series 2-800

   •   Workforce Investment Act




U.S. Department of Labor – Office of Inspector General                                67
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




68                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                               Selected HGJTI Grants:
                                                              Value Not Demonstrated

                                                                      APPENDIX C

ACRONYMS AND ABBREVIATIONS

ASE               Automotive Service Excellence

BRG               Business Relations Group

CFR               Code of Federal Regulations

DLMS              Department of Labor Manual Series

DOL               Department of Labor

ETA               Employment and Training Administration

FPO               Federal Project Officer

FSR               Financial Status Report

GEMS              Grant e-Management System

HGJTI             High Growth Job Training Initiative

LPN               Licensed Practical Nurse

OIG               Office of Inspector General

SUIESO            State Unemployment Insurance and Employment Service Operations

WIA               Workforce Investment Act




U.S. Department of Labor – Office of Inspector General                             69
Report Number: 02-08-204-03-390
Selected HGJTI Grants:
Value Not Demonstrated




                     PAGE WAS INTENTIONALLY LEFT BLANK




70                               U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-203-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated

                                                                 APPENDIX D

AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                      71
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




72                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      73
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




74                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      75
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




76                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      77
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




78                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      79
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




80                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      81
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




82                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      83
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




84                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      85
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




86                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      87
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




88                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      89
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




90                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      91
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




92                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      93
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




94                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      95
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




96                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      97
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




98                       U.S. Department of Labor – Office of Inspector General
                                             Report Number: 02-08-204-03-390
                                                          Selected HGJTI Grants
                                                         Value Not Demonstrated




U.S. Department of Labor – Office of Inspector General                      99
Report Number: 02-08-204-03-390
Selected HGJTI Grants
Value Not Demonstrated




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:             http://www.oig.dol.gov/hotlineform.htm
Email:              hotline@oig.dol.gov

Telephone:          1-800-347-3756
                    202-693-6999

Fax:                202-693-7020

Address:            Office of Inspector General
                    U.S. Department of Labor
                    200 Constitution Avenue, N.W.
                    Washington, D.C. 20210




100                                   U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-08-204-03-390
